    . .
I




           MEDICARE CARRIER ASSESSMENT 

                OF NEW TECHNOLOGIES 





                     OF INSPECTOR GENERAL
          OFFICE OF EVALUATION AND INSPECTIONS
                                                 APRIL 1990
 MEDICARE CARRIER ASSESSMENT 

      OF NEW TECHNOLOGIES 





                  Richard I? Kusserow
                  INSPECTORGENERAL




OEI-01-88-00010                         APRIL 1990 

                                EXECUTIVE SUMMARY

PURPOSE AND OBJECTIVES

This inspection report reviews technology assessmentactivities by the Medicare carriers. We
examined how the carriers identify new technologies, and how they make decisions about
coverage and pricing for new devices, diagnostic tests,procedures, and treatment modalities.
Also, we addressedhow the carriers perceive their overall performance in carrying out
technology assessmentactivities.

BACKGROUND

Total Medicare expenditures increased at an averageannual rate of 12 percent over the years
1976 to 1988, but Medicare Part B expenditures increased at an annual rate of 18 percent over
the same years. In dollar terms, the Part B payments made by Medicare carriers increased an
averageof $1.8 billion a year, to $26.1 billion in 1988. Studies conducted by the Health Care
Financing Administration (HCFA) and the Office of Technology Assessmentindicate that new
health care technologies account for a substantial portion of the annual increase.

In their role asprocessorsof approximately 400 million claims annually for health care items
and services, the Medicare carriers are usually the program’s first point of contact with
technologies new to the medical marketplace.

The carriers are called upon to identify and to make coverage and pricing decisions about
almost all new health care technologies. Ordinarily the carriers decisions are final; HCFA
catries out national assessmentson only 20 or 30 new technologies a year.

METHODOLOGY

We basedthis inspection on:

.	   structured interviews with representativesof all the Medicare carriers that were
     responsible for processing Part B claims during the summer of 1988;

.	    written information provided by the carriers concerning their experiences in assessing
      five particular new technologies;

.	   discussions with outside observers,including representativesof manufacturers,
     insurance organizations, and national organizations active in assessinghealth care
     technology; and

.    ‘the HCFA’s Medicare Part B payment data records, from which we derived payment
      amounts for particular codes provided by the carriers.



                                               i
MAJOR FINDINGS

Our findings on carrier assessmentof new technologies reflect three major themes:
(1) limited information about emerging technologies, (2) inconsistent coverage and pricing
decisions, and (3) economies not realized. We reflect these themes in our findings:

       The HCFA has moved to improve carrier coverage and pricing. However, carriers
       desire additional and more timely information on coverage and pricing matters.

       Carriers are inconsistent in coverage and pricing decisions involving new technologies.
       Some of the variations are unwarranted (particularly in pricing).

       Carriers have rw system for ensuring that payments for new technologies decrease in
       response co decreasing costs for delivering an item or service.

We organized our individual findings according to the Medicare carriers’ process for
assessmentof new technologies: (1) identifying the new technology as such, (2) deciding
whether or not to include it as a Medicaxe covered item or service, and (3) deciding on the
reimbursement amount, or price, to allow for it.

Overall Performance

.	    The carriers’ self-rankings indicate substantial room for improvement in the way they
      assessnew technologies. In only one of four categories do a majority rate the carrier
      performance as good.

Identification

.	    More than one-third of all carriers have experienced major problems with the
      identification of new technologies. Included among them are 6 of the 11 largest carriers.

Coverage

.	    Most carriers use professional acceptanceas a major criterion when making coverage
      decisions about new technologies. Less than 10 percent of the carriers cite cost
      effectiveness as a major criterion.

.	    Respondentsat one-third of the carriers say that the carriers, as a group, are at most
      minimally consistent in making coverage decisions about new technologies.

.	    When they make coverage decisions about new technologies, most carriers get input
      from such operationally related sourcesasHCFA, other carriers, or their own private
      businesssegments.




                                                ii
.	     However, the carriers strongly support the concept of a national clearinghouse that
       would shareinformation about coverage issuesamong carriers.

Pricing

.	     Most carriers use more than one method to setreimbursement amounts for new
       technologies. The method used by the most carriers is that of comparison to similar
       codes.

.	     Reimbursement amounts allowed for new technologies vary significantly from one
       carrier to another. The variation is much greaterthan that accounted for by differences
       in per capita personal income acrossthe country.

.	     Although about half the respondentsthink that the cost of providing a new technology
       tends to decreaseduring the 2 or 3 years following its introduction, none identify any
       special initiatives to avoid overpayments by Medicare in such instances.

RECOMMENDATIONS

The HCFA should continue to improve its own capability and that of the carriers to identify
.emerging technologies and to make more informed, explicit, and consistent coverage and
pricing decisions concerning new technologies.

Toward this end HCFA should:

(1) 	 continue to improve communication among the carriers through increased use of
      national and regional technical advisory groups,

ca 	   continue to improve carrier accessto comparative Medicare payment information about
       new technologies,

(3) 	 review the performance of carriers in identifying, covering, and pricing specific new
       technologies, and

(4) 	 cooperate with the Public Health Service in proactively and routinely compiling and
      rapidly disseminating information on new health care technologies through
      clearinghouses or other appropriate means.

The HCFA should seek legislative authority to broaden the basesupon which it can estab­
lish reimbursement amounts for new and emerging technologies other than physician ser­
vices. This authority should be available to HCFA both at the time of the initial coverage
decision and as the technology matures.




                                               ...
                                               111
The legislation should supplement current authorities by allowing HCFA to:

(1) 	 limit initial payments basedon a consideration of the cost of developing and delivering
      the technology,

(2) 	 subsequently reduce the allowable chargesfor new technologies as they mature in order
      to take advantageof reduced costs, and

(3) 	 establish regional or national reimbursement limits basedon simple and easily verifiable
      criteria such as the mere existence of substantial variation in reimbursement rates.

COMMENTS AND OIG RESPONSE

In its written comments and at subsequentmeetings, the HCFA recognized that problems exist
with the carrier assessmentof new technologies and noted that it has taken numerous recent
initiatives to’mprove technology assessment. Some of the actions we recommended are
included among the HCFA initiatives. The fiCFA was concerned that our findings, at least in
part, may no longer be valid becauseof its recent efforts. It asked the OIG to conduct an
additional study aimed at assessingthe effectiveness of its recent initiatives.

We agree that HCFA has moved to resolve the problems addressedin this study. For this
reason we have removed from this report a statement, contained in the draft report, that the
current procedures for carrier coverage and pricing of new technologies constitute a material
internal control weakness within the meaning of the Federal Manager’s Financial Integrity
Act. We have agreed to work with HCFA in evaluating the effectiveness of its efforts to
improve carrier assessmentof new technology.

The HCFA agreed that additional legislative authority would help it improve coverage and *
pricing decisions for nonphysician services. The HCFA believes that physician payment
reforms recently enacted in the Omnibus Budget Reconciliation Act of 1989 (OBRA-89) will
provide an appropriate framework and sufficient authority to improve coverage and pricing
decisions relating to physician payments.

We agreeand we have modified our legislative recommendations to focus exclusively on
nonphysician services. But we are concerned about the practical aspectsof the new physician
payment reform provisions. In order to develop fee schedulesfor new and emerging treatment
modalities, HCFA must identify them We believe that the ability to identify emerging new
technologies is the area of greatest weakness in the current system. We are hopeful that
HCFA’s recent initiatives will be effective in addressing this weakness. We will know more
when our future evaluations, mentioned above, are completed.

We also remain concerned that the many Part B payments for nonphysician services, such as
durable medical equipment, prosthetics, and physiological testing, are not covered by the
payment reforms of OBRA-89 . We believe our legislative proposals arc particularly
important for these nonphysician services.



                                              iv
The HCFA disagreed with our recommendation for disseminating coverage and pricing
information among carriers through a clearinghouse becauseit would not be cost effective,
and becausecarriers do not use current clearinghouses. We continue to support this
recommendation. In our survey, the carriers themselvesasked for this kind of assistance. We
believe the current clearinghouses are too passive and often impracticably slow becausethey
rely upon specific requestsfrom the carriers. What we have in mind is a more proactive and
orderly dissemination of information. We think that a more proactive clearinghouse would be
an effective way to do this, but we would support any other technique provided it is
aggressiveand systematic. We have modified the wording of the recommendation to make
our intent more clear.

The Public Health Service and the Office of the Assistant Secretary for Planning and
Evaluation both recognized the need to improve carrier coverage and pricing decisions. They
both supported the idea of a clearinghouse to sharecoverage and pricing information.

The Health Insurance Association of America and the Health Industry Manufacttirs
Association also commented on our draft report. They agreed with most of our findings and
recommendations.

The text of all comments and our detailed responsesto them are in appendix D.




                                              V
.




                                               TABLE OF CONTENTS 



    EXECUTIVE SUMMARY

    INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

    FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

             Carrier Identification Of New Technologies                             . . . . . . . . . . . . . . . . . . . . . .6

             Carrier Coverage Of New Technologies.                              . . . . . . . . . . . . . . . . . . . . . . . .8

             Carrier Pricing Of New Technologies.                            . . . . . . . . . . . . . . . . . . ..c....    16

             Overall Carrier Performance In-Assessment Of New 

             Technologies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 


    RECOMMENDATlONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

             Comments And OIG Response . . . . . . . . . . . . . . . . . . . . . . . . . ..i...                             26

    APPENDIX A

         - Methodological             Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-l

    APPENDIX B
           .
         Case Studies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-l

    APPENDIX C

             Glossary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . c-1

    APPENDIX D                                                           .

             Comments On The Draft Report And OIG Responses                                           . . . . . . . . . . . D-1

    APPENDIX 	E

             Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . E-l
                                     INTRODUCTION.

BACKGROUND

Basis in the Law

Medicare is a health insurance program for the aged an! disabled. Since enactment in 1965 it
has provided coverage for broad categories of benefits. Among thesebenefits are (1)
services by physicians, and (2) supplies such as equipment and diagnostic testsordered by
physicians. All of thesearc covered under supplementary medical insurance (Part B of
Medicare). Hospital insurance (Part A) covers servicesprovided by hospitals, skilled nursing
facilities, and home health agencies.

Generally, Part B of Medicare covers aIl services ordinarily furnished by physicians licensed
to practice medicine and those items or servicesfurnished by nonphysician suppliers under a
physician’s supervision or in responseto a physician’s request. But coverageis not unlimited.
The law provides a general exclusion that applies to every claim for benefits:

       “...no payment may be made for any expenses which... are not reasonable and
       necessary for the diagnosis or treatment o illness or injury or to improve the
                                                 4
      function of a malformed body member....”

Administration   by Carriers

The law assignsto the Secretary of Health and Human Services(HHS) overall responsibility
for administering Medicare. Within HHS, the Health Care Financing .Administration (HCFA)
has primary responsibility for Medicare operations. The law authorizes the Secn%ary3toenter.
into contracts with carriers for performance of payment and other program functions. -Under
Part B, thesecarriers are private insurance organizations that contract with the Secretary to
make coverage determinations, set reimbursement amounts, and disburse payments in a local
service area, most often a State.

One of the essential functions that carriers perform is the making of coveragedecisions in
responseto claims for benefits. Carriers do not rely on an all-inclusive list of Medicare
covered items and services. In principle, each of the estimated 500 million Medicare Part B
claims filed annually is the subject of a coverage determination by a carrier. In practice, few
individual claims present serious coverage issues. Small numbers each year include new or
unusual devices, tests, procedures, or treatment modalities which the carriers must assess,and
for which they must make coverage and pricing decisions.

Carriers are bound by policy guidance that HCFA hasissuedon a specific new technology.
When such guidance is not offered, each carrier is authorized to make decisions about what is
reasonable and necessaryand to apply these decisions in making coveragedeterminations for
individual claims.4
Becausethey receive and adjudicate claims, carriers perform the bulk of assessmenton new
technologies. A small number of items and services(usually 20 to 30 a year) become the
subjects of a nationally centralized technology assessmentprocess,either becausethey present
broad national policy issuesor becauseit has become apparent that different carriers have
made inconsistent coverage decisions. Carriers refer these issuesto HCFA, which coordinates
the centralized assessmentand advisesthe carriers of the result.

Trends in Medicare

Total Medicare expenditures increased at an averageannual rate of 12 percent over the years
1976 to 1988, but Medicare Part B expenditures increased at an annual rate of 18 percent over
the same years (figure 1). In dollar terms, the Part B payments made by Medicare carriers
increased an averageof $1.8 billion a year, to $26.1 billion in 1988. Studies conducted by
HCFA and the Offke of Technology Assessmentindicate that new health care technologies
account for a substantial portion of the annual increase.


                                                FIGURE 1 

                         MEDICARE           PAYMENTB,TOTAL          AND PART B 

                                                  1976 - 1988 


                B%LlON@
         $100




             1876         1878             1080       1082        1084.   1888     1088
                                                      YEAR

                                       -      TOTAL     *    PART B

     SOURCE: HEALTH CARE FINANCING 

     ADMINISTfUTION. OFFICE OF 

     THE ACTUARY 





The increasinFmmber of enrollees contributes about 13 percent of the increase for Part B
expenditures.     Inflation, the largest factor, contributes about 50 percent of the increase, and
increasing use of servicescontributes the remaining 37 percent. The latter two factors reflect




                                                        2

.




    the effects of technological innovation, Both include the costs of developing and introducing
    new items and servicesand demand for new services.’

    PURPOSE AND OBJECTIVES

    This study reviews technology assessmentactivities by the Medicate carriers. It examines
    how the carriers identify new technologies and how they make decisions about coverageand
    pricing for new devices, diagnostic tests,procedures, and treatment modalities. It also
    addresseshow the carriers perceive their overall performance in carrying out thesefunctions.

    METHODOLOGY

    We interviewed each of the 45 carriers about the processthey use to assessnew technologies
    and their evaluation of the assessmentactivity. We spoke with medical directors of all 29
    carriers who had them. In the caseof 16 carriers that did not have medical directors, we
    interviewed responsible smff personswho were knowledgeable about Medicare operations.
    Our detailed, structured interviews followedimroductory letters and preliinary
    conversations to identify the respondentsat each carrier. We interviewed chief medical
    officers and those who overseedecisions about new technologies; as such thesepersonsam
    likely to be highly knowledgeable about carrier assessmentactivity.

    Since all carriers participate in technology assessment,we chose to interview all of them. In
    analyzing their responses,we grouped the carriers by size, censusregion, type (Blue Shield
    plan or commercial carrier), and presenceof a medical director.

    In addition, we interviewed 12 observersoutside the carriers for independent perspectiveson
    how well the carriers ate doing in assessingnew technologies and for recommendations on
    any improvements that might be made (appendix A).

    For a snapshot view of actual experiences,we asked the carriers about decisions they have
    made concerning a selection of new technologies. Through the introductory letters we asked
    what procedure codes they used for 12 technologies during the years 1985 through 1987. For
    5 of these technologies we also asked for the carriers’ experience with the key elements in the
    assessment: identification, coverage, and pricing (appendix B).

    We reviewed HCFA’s Part B payment records for these samefive technologies in order to
    determine the number of servicesreported by each carrier in the years 1985-1987 and the
    actual expenditures reported Brief descriptions of the technologies can be found in appendix
    C.

    OTHER STUDIES AND ACTIONS

    In 1984 the Office of Technology Assessmentexplored;he dual relationship between
    Medicare and technology and identified policy options. In 1985 the consulting firm of
    Lewin and Associates, under a contract with the Assistant Secretary for Planning and


                                                    3

I! .   -, 




              Evaluation, examined the Medicare coverageprocessfor new technologies and recommended
              changesin five specific areasof policy-making.’ And HCFA itself styd$s technology
              assessmentin its role as the source of policy guidance for the carriers.

              During 1987, in compliance with the terms of an agreement to settle a beneficiary’s lawsuit,
              HCFA published in the Federal Register a notice and request for comments about procedures
              for medical services coverage decisions.” Many of thesecomments reflected opinions that
              Medicare is not consistent, particularly in coverage decisions.

              In January of 1989, following analysis of the comments, HCFA published a proposed rule on
              criteria and proc@res for making medical servicescoverage decisions that relate to health
              care technology. The proposed rule addressescriteria and procedures for HCFA decisions as
              to whether and under what circumstances specific health care technologies could be
              considered reasonable and necessaryand therefore covered under Medicare. The rule would
              provide for more opennessand streamlining of the decision making process through increased
              public participation and expedited review of new breakthrough technologies.     -

              A second lawsuit,13 recently certified as a class action in U.S. District Court in Massachusetts,
              seeksin effect an individual technology assessmentby the carriers for each claim. If
              successful, no claim could be denied on the basis of a centralized decision that an item or
              service is not reasonable or necessarywithin the meaning of Medicare law.

              Along with the regulatory process,HCFA has moved with a number of administrative actions
              aimed at improving the assessment.ofnew technologies, including that done by the carriers.
              Among these actions are the following:

              .	    All carriers are required to submit a copy of all medical coverage policy. This policy
                    will be reviewed to identify carriers with widely variant policy.

              .     Ail carriers are required to have licensed physicians as medical directors.

              .	   Medical directors conferences are to be held at least annually (in fact have been
                   semiannual) and are to devote attention to technology’assessment.

              .	   The Coverage and Payment Technical Advisory Group and the HCFA Physicians’ Panel
                   both discuss emerging technology and coverage issues.

              .	   The HCFA is evaluating the reasonablenessof price levels for real time cardiac
                   monitoring,

              In May 1988, the National Advisory Cout$l on Health Care Technology Assessment issued a
              report on the Medicare coverage process. The report is organized in chronological order of
              the stepsin the coverage and assessmentprocessthat applies to those technologies chosen for



                                                              4

national assessment. It is exemplified by the progressof nine selected technologies. The
Council made 23 recommendations for improving the timeliness, openness,and quality of this
assessmentprocess. National technology assessmentsare, of course, binding on carriers when
incorporated into HCFA instructions. Moreover, the national process provides a model for
portions of the carriers’ own assessmentactivities.




                                            5

                                         FINDINGS

Our fmdings on carrier assessmentof new technologies reflect three major themes: (1) limited
information about emerging technologies, (2) inconsistent coverage and pricing decisions,
and (3) economies not realized. We reflect these themes in our findings:

      The HCFA has moved to improve carrier coverage and pricing. However,
      carriers desire additional and more timely information on coverage and pricing
      matters.

      Carriers are inconsistent in coverage and pricing decisions involving new
      technologies. Some of the variations are unwarranted (particularly in pricing).

      Carriers have no system for ensuring that payments for new technologies
      decrease in response to decreasing costs for delivering an item or service. _

We organized our individual findings according to the Medicare carriers’ processfor
assessmentof new technologies: (1) identifying the new technology as such, (2) deciding
whether or not to include it as a Medicare covered item or service, and (3) deciding on the
reimbursement amount, or price, to allow for it.

CARRIER IDENTIFICATION OF NEW TECHNOLOGIES

Caniers rely primarily upon claims submissions and physician inquiries to identify new
technologies.

For the identification of new technologies, carriers for the most part react to inputs from
agents outside of Medicare. Few caxriersactively seek to identify new technologies, and they
usually react to external sources.

According to 80 percent of the carriers, the claims processing department is the primary site
for identification of a new technology. Significant characteristics that trigger identification
and review include claims submitted without a procedure code, or claims for items or services
the carrier has not seenbefore or that have no established pricing. One carrier representative
stated: “The claim cannot be categorized or explained and we don’t know how to processit.”
Thus, identification takes plpce by exception- if the claim cannot be paid, it is passedon for
further review.

Fewer than 20 percent of the carriers have written guidelines to addressidentification of new
technologies. Those who do include the guidelines in their claims processing manuals.
Ordinarily, a new technology is identified not by its meeting a defined criterion, but by its
failing to fit payment instructions.




                                               6

At the larger carriers particularly, departments other than claims processing, often professional
relations or utilization review, identify new technologies. These departments are contacted by
external sourcessuch as physicians, manufacturers, national associations, and beneficiaries.
Physicians account for the substantial majority of thesecontacts. They approach the carriers
by telephone or letter or talk with carrier medical staff and advisersat professional meetings.
Some physicians call a carrier before submitting a claim to learn if Medicare will cover an
item or service. Others question the reimbursement amount received on a new technology
about which the carrier was unaware.

Besidesinput from physicians, about one-third of the carriers identify manufacturers as a
sourcefor identification of new technologies. Larger carriers tend to rely on larger numbers
of sourcesto identify new technologies. Of the 11 largest carriers, 10 draw on 3 or more
sources,but only 13 of the 34 smaller carriers rely on asmany.

More than one-third of all can+rs have experienced major problems with the identification
of new technologies. Included among them are 6 of the II largest carriers.  -

Providers sometimes cause significant problems for carriers by giving inadequate descriptions
of new technologies on claims submitted for payment. If a claim carries a procedure code that
does not accurately describe a new technology, this &lays or defeats carrier identification.
Intentionally or not, providers can thus exploit a vulnerability in the carrier identification
process. Ten carriers report that a new technology billed under an established procedure code
would not be recognized as new but would be paid as submitted. A carrier’s failure to
recognize a new technology can lead to severalproblems for beneficiaries, physicians, the
health care industry, and program administrators. Any Medicare overpayments are subject to
recovery. These overpayments, if not corrected promptly, createan erroneous impression
throughout the community that Medicare now pays for the new technology. This opens the
way to still more incorrect bills and additional improper payments. A carrier that does not .
recognize a new technology is prevented from informing providers at an early stage about
Medicare’s assessmentof the technology. The carrier’s claims processing department receives
little or no guidance about the new technology, and the errors compound with each new claim
submitted.

Sometimes, manufacturers also create problems for the caniers by providing data that are not
relevant, objective, or complete. Many medical directors feel that promotional material is of
questionable value to their assessmenttask simply becauseit is used as a marketing tool. One
representativeof a large carrier went on to say: “Technologies are presented initially by
manufacturers who send their own literature and reference material. We have to follow up
with our own literature searchand often refute what is claimed by the manufacturer.*’ Some
carriers have developed referral procedures that attempt to place constraints on submission of
promotional material in connection with assessmentof new technologies.




                                               7

    Six@ percent of carriers report that HCFA provides them with information on the
    identifxation of new technologies no more than occasionally.

    The HCFA provides policy guidance to the carriers on allaspects of assessmentfor new
    technologies. All carriers receive the Coverage IssuesManual with information about national
    coverage decisions. However, a majority of the carriers say that they receive information
    about other new technologies, that have not been subjects of a national decision, no more than
    occasionally. Only one-third of the carriers repott receiving information often or very often,
    and one-fourth say they receive it rarely or never.

Most carriers describe the information that HCFA supplies as guidelines (including manuals)
and alerts to new technologies that have been identified elsewhere. The HCFA usually
transfers information to the carriers formally, in manual instructions or written guidelines.
These are the items carriers find most useful. Somecarriers, however, say that they would
like HCFA to provide more timely and specific information on the experience of other carriers
with new technologies, and on when such technologies ceaseto be investigational or become
obsolete.

CARRIER COVERAGE OF NEW TECHNOLOGIES

Most ca+ers use professional acceptance as a major criterion when making coverage
decisions about new technologies. Less than IO percent of the carriers cite cost
eflectiveness as a major criterion.

In making coverage decisions, carriers use a small and consistent set of criteria, which include
professional acceptance,patient benefit, safety and effectiveness (fiw    2). These same
criteria were identified in other studies of coveragedecision making.     Guidelines issued by
the Blue Cross and Blue Shield Association,16 comments submitted in response to HCFA’s .
noticep and responsesof the outside observerswe interviewed taken together reflect a
consensusabout criteria for coverage.

Acceptance by the profession, which is identified by most medical directors as a major
criterion, commonly has four characteristics. A new technology is generally accepted if:

.        research and investigation are complete,

.        value for diagnosis or treatment is demonstrated,

.        it is in general use for patient care, and

.        it does not involve drugs or devices not cleared by government regulators.




                                                      8

                                        FIGURE 2
                         CRITERIA USED BY MEDICARE CARRIERS
                             IN MAKING COVERAGE DECISIONS


             PROF. ACCEPTANCE

               PATIENT BENEFIT

                          SAFETY

                EFFECTIVENESS

        APPROPRIATE SETTINQ

         OOST EF FEOTIVENESS

                             COST

                                        20 -      40        80       80   ioo
     SOURCE: AU MEDICARE CARRIERS              PEROENT OF WRIER8 

     AS REPOFiTED TO OFFICE OF 

     INSPECTOR GENERAL, HHS. 1988 





Since each of the carriers interprets the meaning of demonstrated value and general use within 

its service area, coverage decisions can and do vary, reflecting differences in local practice 

patterns. These variations are of concern to some carrier representativeswho feel that health 

care has become “a much more uniform processnationally than it was in 1965 when Medicare 

was &acted.” One of the medical directors observes,“the idea of local practice patterns that 

was accurate20 or 30 years ago no longer applies today.” The carriers arelooking for more 

coordination-some even say uniformity-in coverage decisions. 


The economic criteria, cost and cost effectiveness, are at the low end of the responsescale in 

figure 2. Most canier representatives view them as criteria for pricing only. They take the 

cost or cost effectiveness of a new technology into account only to limit payment to that for an 

older item or service that provides the same patient outcome!. Among the remaining carriers 

that do not use the economic criteria, several dismiss them asirrelevant to health care 

decisions. 


Five of the 12 outside observers we interviewed, including 3 of 4 manufacturer representatives 

giving their own opinions, feel that cost effectiveq?ss should be considered as a major 

criterion in making Medicare coverage decisions. One representativefeels that carriers do 

use cost effectiveness but do not admit to doing so. This observer feels that the practice 

impairs the credibility of Medicare and suggeststhat HCFA publish a listing of coverage 

criteria that mandatesconsideration of cost effectiveness. On the other hand, six national 

organizations; including the Health Industry Manufacturers Astociation, expressconcern with 

useof cost effectiveness as a coverage criterion for Medicare. 





                                                9

.




    One manufacturer proposes that the burden of demonstrating relative effkacy should be
    assumedby the proponent of a new technology as an integral and routine part of researchand
    development. According to this observer, a new technology should be shown to be
    economically responsible in order to earn Medicare coverage. All four of the manufacturer
    representativeswhom we interviewed accept that burden of proof as part of their development
    costs.

    When they make coverage decisions about new technologies, most carriers get input from
    such operationally related sources as HCFA, other carriers, or their own private business
    segments.

    Carriers seek background and evaluation information from external sourcesto add to the
    knowledge of medical practice and scientific literature that their medical advisers bring to the
    assessmenttask For this they turn to familiar organizations, primarily HCFA (figure 3). For
    instance, in our case study of tissue plasminogen activator, we found that 18 carriers (out of 27
    that reported decisions) d&w input f&m HCFA, and 16 from other carriers (seeappendix B).
    Likewise, in the study by the OtZice of Technology Assessment,HCFA and othIy insurance
    companies are the two sourcesnamed most frequently by medical consultants.


                                               FIGURE 3
                                EXTERNAL SOURCES USED BY CARRIERS
                                    IN MAKING COVERAGE DECISIONS


                                  HWA
                    OTHER CARRIERS
                        PRIVATE BUS.
            TECH ADVISORY GROUP
                INSURANCE ASSOOS.
                    MANUFACTURERS
                 MEDICAL SOOlETlES
               SPEOIALTY SOOIETIES
                       BENEFlOlARlES
                                                                                .
                                        ;1   2;      4;        eb         80   100
       SOURCE: AU MEDICARE CARRIERS               PEROENT OF OARRIERI 

       AS REPORTED TO OFFICE OF 

       INSPECTOR GENERAL, HHS. 1988 




    The HCFA supports a number of Technical Advisory Groups (TAGS) consisting of contractor
    (carrier or intermediary) representatives and HCFA staff who meet to discuss and share
    information on common concerns. Although one carrier TAG centers its attention on
    coverage and payment issues, little more than one-fourth of the carriers identify it as an
    external source for information. Those who do so tend to be among the 10 or 12 carriers with


                                                   10 

active representation in the group. All the carriers are aware of the existence of this TAG and
receive minutes or reports of meetings. However, the extent to which each carrier usesthe
TAG discussions seemsto vary directly with the extent of participation by its staff.

We learned of the Medical IssuesTechnical Advisory Group (MITAG) that includes the
medical directors of all five carriers in HCFA’s New York region. The MITAG meets twice a
year, with the HCFA regional office providing administrative and organizational support.
Carrier medical directors and their staffs set the agenda, make presentations, and lead the
discussions. All the carriers in the region agree with HCFA that the M.lTAG facilitates
exchange of important information, provides a forum for useful discussion of new
technologies, and promotes consistency in carrier decisions. All consider active involvement
by the medical directors critical to the group’s effectiveness.

Carriers get less input from sourcesless closely associatedwith their own organizations and
those less closely associatedwith Medicare administration. Notable for their absenceas
sourcesof input for coverage decision making are the Professional Review Organizations,
State and Federal Government agencies,and suppliers of health care equipment. Fewer than
 10 percent of the carriers draw upon local or State medical associations. None report any
input from beneficiaries or beneficiary interest groups.

About half the can-iersfind the support they get from HCFA at least moderately helpful in
making coverage decisions about new technologies. An additional 40 percent view HCFA
supporl as minimally or not helpfur



                                                      FIGURE 4                                 .
                            HOW CARRIERS               RECIEVE HCFA SUPPORT
                              FOR MAKING              COVERAGE DECISIONS




                    YODLRATEW         HELCf
                                10s




                                                                       NO EXCENILNCE


                        YINIYALLY           HELPFUL
                                      IDS                     NOT   HELPFUL

 SOURCE: AU MEDICARE CARRIERS
 AS REPORTED TO OFFICE OF
 INSPECTOR GENERAL, HHS. 1968




                                                       11 

 About half the carriers react positively to the help they get from HCFA in making coverage
 decisions, and many of these find the support very helpful (figure 4). Carriers find HCFA
 support helpful when it provides definite answers to specific questions. Included among the
 HCFA support that carriers find helpful are policy guidelines in the Medicare Carriers Manual
 and the Coverage Issues Manual. Several carriers single out the transmittal on magnetic
 resonanceimaging as an illustration of how it should be done.20 This transmittal, they say,
 includes definitive criteria and guidelines that are well researched,well documented, and well
 presented. Carriers also find helpful HCFA’s sharing of experiencesthat other carriers have
 had with specific technologies. They appreciate the opportunity to shareresponsesby HCFA
 central and regional offices to specific requests.

Among those carriers who say that HCFA is not helpful, the theme of timeliness dominates;
information comes to them slowly. Some carriers mentioned, too, that information from
HCFA is overly open to interpretation. The guidelinesare not as specific as they could be.
Each carrier is left to make its own coverage decisions, opening up the potential for
inconsistency. The carriers want HCFA to provide more background, a better rationale for
decisions, and prompter exchange of information among carriers.

A number of carriers ask that HCFA provide them with a senseof reasonablepricing ranges
for new technologies, possibly by passing along reimbursement rates set by other carriers.
They bring up this point while addressing coverage questions. Many carriers seepricing, or at
least the setting of relative values, as an integral part of the coveragedecision process. Their
perception is not unique to their role as carriers. A number of medical directors routinely
include pricing recommendations along with their coveragedecisions for Medicare and for
private businesssegments.

At most carriers, physicians have the key role in making coverage decisions about new
technologies. About one-fourth of the carriers, howevet, involve nonphysicians extensively.
in this process.
           .
Although each carrier approachesthe,assessmentof new technologies in its own way, the
nature of the task leads to some common features among the different approaches. At each
carrier one person has the key role in technology assessment.That person assemblesand
evaluatesdata and opinions and prepares the carrier decision (which may still need to be
ratified by responsible authority in the carrier organization). The medical director has this key
role at the 29 carriers that employ such a person. Other carriers involve nonphysicians
extensively in the assessmentprocess. Nurses were the coveragedecision makers, for
example, at 6 carriers out of 32 that covered the infusade pump, one of our casestudies
described in appendix B.

All 11 of the larger ca&iers have medical directors. All of them take the key role in
technology assessmentat their carriers, and nine of them work with medical advisory
committees on such matters. These committees can be structured or informal, continuing or
task oriented, internal or inclusive of physicians from outside the carrier. Many of the carriers
that use committees think that the most objective committees involve more than one type of



                                                12 

medical specialist on every issue. They seeconsultant bias as an important vulnerability in
technology assessmentand seekinput from other specialists as a check. Some carriers extend
the concepts of opennessand balance further by including the participation of other health
care professionals. A few carriers allow for public input to the advisory committees.

At 12 carriers, the medical directors report that in assessingnew technologies they work
essentially alone. They frequently seekinformation from colleagues, researchcenters,
specialty groups, and other medical directors, but the core evaluation is theirs alone. In
supporting this approach, some note that an individual is better able to make a prompt
decision than is a committee.

Only 8 of the 17 smallest carriers have medical directors. Most carriers without medical
directors draw upon consultant physicians and precedents,but they have no internal process
for assessmentat the physician level. Smaller carriers often look to larger neighbors for
advice in the form of precedents.A catrier with one or more centers of medical researchin its
service area is likely to receive some of the first claims for new technologies. Butknowledge
now spreadsso quickly that small carriers seeclaims for some new technologies at almost the
same time as their larger counterparts.

Nonphysicians who are involved extensively in the processfor coverage decision making:

.     rarely have operating guides,

.     have few explicit limits to discretion, and

.     usually are subject to internal quality review of their work in assessingnew technologies.

Beginning in 1989 all carriers are required to have medical directors. Still, there may be a
continuing role for experienced nonphysicians in support of the medical directors, and that
role could be extensive in some situations.

Respondents at one-third of the carriers say that the carriers, as a group, are at most
minimally consistent in making coverage &&ions about new technologies.

The carriers split into three nearly equal groups in their opinions about consistency (figure 5).
Many of the carrier representativeswho say that coveragedecisions are not consistent
attribute this situation to a widespread lack of communication among the carriers.
Representatives at other carriers say that more prompt, more effective, and mom frequent
communication between HCFA and the carriers would operate to increase consistency. Many
of the respondents feel that regional medical meetings and a central coverage clearinghouse
could open new possibilities for communication.
                                        FIGURE 5 

                         HOW CARRIERS VIEW THECONSISTENCY   OF
                       THEIR GROUP IN MAKINNG COVERAGE DECISIONS

                        MODERATELY         CONIllf
                                     888                                   INIYALLY         CONIIOT.
                                                                                      818




                            VERY 	    CONll8T.
                                      rs




I   SOURCE: ALL MEDICARE CARRIERS
    AS REPORTED TO OFFICE OF
    INSPECTOR GENERAL, HHS. 1988
                                                            NO   OCINION
                                                                 ass
                                                                                                       I




Almost all of the respondentswho expressz& opinion regard consistency of carrier actions as
a desirable attribute. Although some of them attribute inconsistency to differences in local
patterns of medical practice, most say that new medical knowledge diffuses quickly through
the health care delivery system today, much more quickly than was true at the birth of
Medicare a quarter century ago. Few agree with the medical director who seesvirtue in
inconsistency, saying: “Lack of variability may not be an asset. What is to prevent all of us
from going off in the wrong direction together?”

Those who say that the carriers are at least moderately consistent feel that by “asking around”
they can get “a fair exchangeof information.” In their view any reported examples of
inconsistency representexceptions that have slipped through the system. These carriers cite
their experiences with physicians who have moved from one carrier’s service areato another.’
Such physicians sometimes have reported to the new carrier broader coverage and higher
payments by the previous carrier. When the new carrier called to check the report, it was not
corlfirmed.

Some medical directors believe that inconsistency gives the entire Medicare program a bad
name, “especially when durable medical equipment is covered by one carrier and not another.
It is difficult to make providers and beneficiaries seehow Medicare can be a national program
but not be consistent on what is covered.” Experience with transtracheal oxygen in one of our
case studies illustrates the point During 1985,18 carriers used 8 procedure codes in
processing claims for tube insertion and gas supplies; in 1987,25 carriers paid for the
procedure and supplies under 10 codes (seeappendix B).




                                                     14 

The cam’ers strongly support the concept of a national clearinghouse that would share
information about coverage issues among carriers.

The coverage clearinghouse may be an idea whose time has come.21All but six of the carriers
(87 percent) regard it as a good idea (figure 6). Many carriers are extremely positive about the
notion, calling it “an absolute necessity,” or “a long overdue development.” Those few
carriers who do not consider the clearinghouse to be a good idea are troubled by its possible
costs. It would entail creation of a new bureaucracy,they say,which would only add to the
demands on their time and resources.


                                          FIGURE 6
                            DO CARRIERS CONSIDER THE COVERAGE
                                CLEARINGHOUSE   A GOOD IDEA




                                                                DON’T KNOW
                                                                     7%
                                                              0
                                                              lb
     SOURCE: ALl MEDtCARE CARRIERS
     AS REPORTED TO OFFICE OF
      INSPECTOR GENERAL. HHS. 1988




Those carriers who favor a clearinghouse cite the benefits of drawing on research already
completed, thus eliminating needlessduplication. They also believe that a clearinghouse
would speedup the flow of information, a significant point in light of the carriers’ desire for a
faster flow of information from HCFA. An effective clearinghouse provides information
promptly. Smaller carriers, with fewer resourcesfor doing research,anticipate that a
clearinghouse would furnish more complete information than they could obtain on their own.
And finally, becauseparticipation I?; noncarriers could open accessto a larger baseof
information, two-thirds of the carriers would welcome outsiders as contributors and as users.

Some important efforts now taking place are aimed at providing centralized information
resourcesfor health care technology assessment. Included among them are:
.	    American Medical Association, Diagnostic and Therapeutic Technology Assessment
      Project (DA’ITA). Uses consultants selectedfrom a panel of more than 1000 physicians
      and publishes assessmentsin the association’s Journal.




                                                15 

       Blue Cross and Blue Shield Association, Technology Evaluation and Coverage Project
       (TEC). Provides technical assistanceto member plans for their consideration along with
       other factors in making coveragedecisions.

       Health Insurance Association of America, Medical Practice Assessment Center (PAC).
       Began in 1987 with a report on underevaluated health care technologies. Included
       information on obsolete technologies, and commissioned a study on quality assessment.

       National Academy of Science, Institute of Medicine (IOM), Council on Health Care
       Technology. Developing an information clearinghouse on technology and technology
       assessmentas mandated by Congressin 1984. Published an initial directory in 1988.

      National Center for Health Services Researchand Health Care Technology Assessment
      through its Office of Health Technology Assessment(OHTA). Evaluates the safety and
      effectiveness of new technologies and synthesizesthe results in an Assessment Report
      that is disseminated widely. This Office was reorganized under the recently enacted
      Omnibus Budget Reconciliation Act of 1989 (OBRA-89).

Few carriers draw on theseresourcesnow. One-fourth of the 27 Blue Shield plan carriers
include TEC as an external source from which they get information for making coverage
decisions. Just three carrier representatives,all of them medical directors, name DAmA as a
source, and only one mentions IOM

CARRIER PRICING OF NEW TECHNbLOGlES

Mosi carriers use more than one method to set reimbursement amounts for new
technologies. The method used by the most carriers is that of comparison to similar codes..

Carriers set the reimbursement amounts for items and servicescovered under Part B of
Medicare, including new technologies, by using a methodology called reasonablecharge
determination.22 Ordinarily this methodology means that carriers collect histories of billed
chargesfor each item or service. They allow as a reasonablereimbursement amount the
lowest of (a) the billing provider’s customary charge, (b) the prevailing charge for similar
items or services in the locality, or (c) the actual charge. Sometimes it has proved difficult to
collect charge histories for truly innovative technologies.

Moreover, the law places restrictions on the reimbursement amount allowed, additional to
those derived for billed charge histories. Among these limitations have been freezes in
physician fees, adjustments for inherent reasonableness,restrictions on overpriced procedures,
special limits for cataract glassesand lenses,and controls on services by physician assistants
and nurse anesthetists.

More recently, as part of OBRA-89, Congressamended the law to provide for payment of
physician services according to a resource basedrelative value scale (RBRVS). The new



                                                16 

provisions addressphysician servicesonly. They do notprovide relative values for
nonphysician services, nor do they extend to health care items covered by Medicare. And
OBRA-89 does not addressthe potential for expansion of HCFA or carrier authority to
broaden the basesupon which they can make reasonablecharge determinations for the new
and emerging technologies not covered by RBRVS.

The Medicare CaxriersManual gives policy guidance about the methods carriers should !:e to
set the reimbursement amounts for a new technology that does not have a billing history.
The carriers consider an averageof three methods when they are pricing a new technology.
The most common methods seek to establish some relationship with prior experience (figure
7). Almost three-fourths of the carriers compare a new technology with similar codes. Often
this comparison can be made by the carrier’s own staff of reasonablecharge specialists, using
internal data. About one-half of the carriers seekprecedentsfrom providers or other carriers,
and one-fifth from their own private businesssegments. All three of thesecommon pricing
methods involve contacts outside the Medicare carrier.


                                             FIGURE 7
                               METHODS USED BY MEDICARE CARRIERS
                                  FOR PRICING NEW TECHNOLOGIES


                      SIMILAR CODES

                 SURVEY PROVlDERS

                   SURVEY CARRIERS

                     RELATIVE VALUE

                   PRIVATE BUSINESS

                          0AP FILLINQ

                  INHERENT REASON.


  SWRCE: ALL MEDICARE CARRIERS 

  AS REPORTED TO OFFlCE OF              0
   20      40      30        SO      100
  INSPECTOR GENERAL, HHS, 1988 
                   PERCENT
                                                         OFaRRIER8




                                             17
 consultant bias. They would welcome a national fee scheduleor a set of relative values
 provided by HCFA.

 Although only 1 carrier reported a policy of simply paying submitted chargesfor a new
 technology, 13 set the reimbursement amount for plethysmography in this way (seeappendix
 B). Some of these 13 pay submitted chargesuntil they have accumulated sufficient charge
 data (through as few as four claims) to perform a reasonablecharge analysis.

Few carriers report that they use inherent reasonablenessto setprices for new technologies.
Only two respondents in our carrier interviews include it as one of their pricing methods. In
our casestudies an averageof four carriers report that they used inherent reasonablenessin
setting the price for each of the five new technologies. The maximum is eight carriers for the
infusade pump.

Almost half of the carriers spoke of opportunities for making more clear the Medicare Carriers
Manual instructions on calculation of reasonablecharges. The instructions for new
technologies, in particular those which haveno prior charge history, could be made simpler.
One respondent found that the instructions “have become so complicated as to be almost
unbelievable.” Another offered the opinion that ‘A Philadelphia lawyer could not figure it
out.” And a third respondent suggestedthat the whole process“reduces to a nonscientific wild
guess. Usually, the price is on the high side. Almost always, it goes up.”

Theserespondents and their counterparts at other carriers repeatedly ask for a framework that
would allow them to know that their pricing decisions ate not inconsistent with those of other
carriers or the national Medicare program. They arc looking for a better way to make
comparisons with other carriers, non-Medicare payers, providers and suppliers, and most
importantly HCFA’s own pricing information.

Reimbursement amounts allowedfor new technologies vary significantly from one carrier *
to another, The va&tion is much greater than that accountedfor by differences in per
capita personal income across the country.

Not surprisingly, in view of the variety of methods that carriers are aIlowed to use to set
reimbursement amounts, the averageamount allowed for the same new technology can differ
by several hundred dollars from one carrier to another. The 1987 data for one of our case
study technologies, real time cardiac monitoring, illustrates this discrepancy (figure 8). It
shows that the average amount allowed for this service varies widely, from a low of $49.17 at
one carrier to a high of $25 1.10 at another.

The two carriers which allowed (and presumably paid) the highest total amounts for real time
cardiac monitoring during’1987 together accountedfor 81 percent of the national total allowed
and 65 percent of the national total number of services. The averageamount allowed per
service by these 2 carriers, $233.62, was 75 percent higher than the national averageof
$132.26. Yet the carrier which allowed the third highest total amount on averageallowed




                                              18 

$82.67 per service, 62 percent of the national average. Higher volumes by themselvesdo not
account for the variations in averageamounts allowed by the carriers.      ’

                                          FIGURE 8
                           AVERAGE AMOUNTS ALLOWED BY CARRIERS
                           FOR REAL TlME CARDIAC MONITORING, 1987
                            AVERAGE AMOUNT ALLOWED




                    8160




   SOURCE: HCFA. BUREAU OF DATA                     CARRIERS
   MANAGEMENT AND STATl!YlCS. PART B
   MEDICARE ANNUAL DATA SYSTEM



Neither is there a ready connection between average amounts allowed and economic
circumstances in different parts of the country. The second and fourth lowest average
amounts allowed for real time cardiac monitoring servicesduring 1987 occmred in large
industrial Statesof the Northeast. These Statesare above the national averagein per capita
personal income.% The fourth highest averageamount allowed occurred in a rural southern -
State ranked 42 for personal income. It might seem that higher incomes would support, or
even call for, higher averageamounts allowed. This is not the case.

Significant variation in reimbursement amounts for new technologies seemsto be the rule
more than the exception. The samepattern appearedfor real time cardiac monitoring services
in 1985 and 1986. A similar pattern occurred each year for the other new technologies
included in our casestudies (table B-3 in appendix B).

We want to emphasize again that the data which show the price variations are the product of
reporting by the carriers. The procedure codes for which we accumulated amounts allowed
fi-om HCPA’s Part B Medicare Annual Data System (BMAD) are those codesreported to us
directly by the carriers, as described in the methodological notes of appendix A. We can make
no judgement about the possibility for additional payments made under different codes.

We also emphasize that BMAD is a relatively new data baseand some data may not have been
reported accurately. For example, two of the largest carriers, together accounting for more


                                               ‘\
                                                      19
 than half of the national total amount allowed for real time cardiac monitoring during 1985 

 and 1986, show no amounts allowed during 1987. Another carrier, third highest in total 

 amount allowed and highest in averageamount allowed for real time cardiac monitoring 

 during 1985, shows no such data for 1986. 


 Despite possible limitations on completeness of the data, the variation illustrated in figure 8 is 

 real. Variation occurs for each casestudy and each year. And the variation reflects something 

 more than differing economic circumstances acrossthe country. In fact, for our casestudies, 

 the averageamounts allowed typically vary by a factor of five. This wellftceeds the factors 

 of 1 or 2pd      in ranges of compiled data on per capita personal income or cost of living 

 indexes in different locations. Even the ranges for reported physicians’ fees vary by less 

 than a factor of 2 between censusregions.26 


The carrier representativeswith whom we spoke (for the most part medical directors) note that 

new technologies often come into use through the efforts of one or two innovative 

manufacturers operating nationwide. These observersnote that this can be true even if the 

actual delivery of the technology to a patient is completed by one of a large number of 

physicians operating in accord with local practice. They seemuch lessreasonfor such a 

nationally standardtechnology to vary in price than there is for an item produced locally, or 

for a traditional medical service such as a physician office visit. 


These carrier representatives,as well as the representativesof four manufacturers whom we 

interviewed, seemedical practice becoming more uniform nationally. They offer little basis 

for variation in the cost of delivering a new technology beyond what is neededto account for 

local costs of labor, rent and goods, asreflected in overall cost of living indexes. 


Although about half the respondents think that the cost of providing a new technology 

tends to &crease during the 2 or 3 years following its introduction, none identify any            .

special initiatives to avoid overpayments by Medicare in such instances. 


Those canier respondentswho feel that the cost of providing a new technology decreaseswith 

increasing utihzation (figure 9) attribute this to differing factors associatedwith the 

particular technology. For newly developed surgical procedures the respondentssay that 

demands on time and skill tend to decreasewith experience gained in practice. They seethis 

as the chief reason that the cost of providing a new surgical procedure decreases.Moreover, 

they note that the surgical support team and any hospital or other facility support resoulces 

tend to become more efficient over time. This also contributes to decreasingthe cost of 

providing the service. 


For manufactured items such as medical devices, the respondents seeeconomies of repeated 

production as the chief contributor to decreasesin the cost of providing a new technology. 

Likewise, they seethe promotion and distribution organizations for the item asoperating more 

efficiently after a few years of experience have been gained and the high cost of product 

introduction has been absorbed. 





                                                3n
                                         FIGURE 9
                                                                                                   1
                       DO NEW TECHNOLOGY COSTS TEND TO DECREASE
                        WITH USE AND ARE THERE MEDICARE SAVINGS?




                         NO                                                 *Es
                        47s




                                 DEOREASE?                        WINDS?

     SOURCE: ALL MEDICARE CARRIERS
     AS REPORTED TO OFFICE OF
     INSPECTOR GENERAL. HHS. 1988



If the cost of delivering a new product decreases,and respondentsat half the carriers think it
does, it might appear reasonable for carriers to reflect this lower cost in lower Medicare
reimbursement amounts. Yet, none of the respondentsidentifies any special initiatives by the
carriers to capture savings for Medicare when the cost of providing a new technology
decreases. The carriers are aware of only two major instanceswhere Medicare allowances
decreasedto recognize economies of scale associatedwith new technology: cataract
extraction and coronary artery bypass grafts.27

Carriers&o along with the marketplace becauseof the Medicare law’s definition of reasonable
charges. The carriers seethis marketplace as one in which fancy new procedures tend to
command the highest prices, pulling up all payment levels along with them They see
Medicare’s reasonable charge structure, basedon billed charge histories, furnishing an
incentive for continuing inflation. Few carriers, as already noted, report using inherent
reasonablenessas a basis for pricing decisions. The data needed to relate Medicare prices to
the cost of providing an item or service are trade protected and not often made available to the
carriers. Some carriers maintain simply that chargesare their only concern, and that the cost
of providing a new technology has no role to play in Medicare pricing.

“The medical marketplace can be perverse,” notes the medical director at a large carrier. “If a
new technology is successful, many providers acquire the capability to use it. Because the
fu<eddemand is spread over a larger number of providers, the number of servicesavailable to
each decreases. One consequenceis an increasein prices in the attempt to maintain revenues
in the face of decreasing volume. This is not how the marketplace ought to work.”




                                              21 

 Many carriers areioolcing to HCFA for guidance on the reasonablerange within which their
 price for a new technology should fall. They want to know that their prices are not out of line
 with other regions of the country.

 OVERALL CARRIER PERFORMANCE IN ASSESSMENT OF NEW
 TECHNOLOGIES

 The carriers’ self-rankings indicate that there is substantial room for improvement in the
 way they assessnew technologies. In only I of 4 categories do a majority rate the canier
 performance as good

In appraising their own performance in handling new technologies, the carriers indicate that
there is much room for improvement. This, they suggest,is particularly true with respect to
their objectiviry in making decisions; openness to public input tqtdaruztion to benefXaries
and providers about coverage and pricing decisions; and timeliness in making such decisions
(figure 10). The carriers’ perceptions of their limitations inhese areasare in accord with
concerns raised in prior studies of technology assessment and in public comments that
HCFA received in responseto its April 29,1987 notice on Medicare coverage criterk4


                                     FIGURE 10
                     CARRIER SELF RANKINGS OF PERFORMANCE
                         IN ASSESSING NEW TECHNOLOGIES


      .   OBJECTIVITY


            OPENNESS


          EXPLANATION


           TIMELINESS
SOURCE: AU MEDICARE
CARRIERS AS REPORTED TO
OFFICE OF INSPECTOR       o      10       20      30       40      60       60       70
GENERAL, HHS. 1988




Among the four aspectsof performance that we identified, it is only with respect to the
carriers’ use of objective criteria in making coverage and pricing decisions that a majority rate
the carrier performance as good (figure 10). But even hem, it is apparent that there is
considerable room for improvement About one-fifth of the carriers rate their performance in
terms of objectivity as no better than fair.



                                               22 

.




    SimiIarly, in appraising the effect of their technology assessmentactivity on innovation by
    providers and on beneficiary accessto new technologies, the carriers indicate that there is
    room for improvement. About 40 percent of the carriers rated their effect on innovation as
    good. Only 25 percent rated their effect on beneficiary accessas good. In this context it is
    pertinent to note that HCFA’s annual carrier performance evaluation program (CPEP) reviews
    do not include a set of elements specifically addressingtechnology assessmentactivity. About
    one-half of the carriers report that HCFA evaluates this activity either implicitly in other CPEP
    elements or separately through ongoing monitoring. About one-fourth of the carriers indicate
    that there is no HCFA evaluation of their technology assessmentactivity, and about one-fourth
    say they do not know if such evaluation takes place.




                                                  23 

.




      2.                                RECOMMENDATIONS

      Based upon the findings above, the time hascome for new national initiatives that foster
      consistency in the administration of the Medicare program and in the identification, coverage,
      and pricing of new technologies. In this context we make the following recommendations:

             The HCFA should continue to improve its own capability and that of the
             caniers to identify, emerging technologies and to make more informed, explicit,
             and consistent coverage and pricing decisions concerning new technologies.

     Toward this end HCFA should:

     1. 	    Continue to improve communication among the carriers through increased use of na­
             tional and regional technical advisory groups.

    At national and regional levels, HCFA should facilitate more frequent meetings ai which
    carrier officials and HCFA officials discussnew technologies and how to respond to them.
    Becauseof the information sharedin such meetings, they can be quite effective in promoting
    greater consistency in coverage and pricing decisions. The Medical IssuesTechnical Advisory
    Group in Region II, which for some time has servedas a forum for discussion among HCFA
    officials and carrier medical directors, appearsto be a good example of the kind of
    collaborative effort that should be replicated

    2. 	    Continue to improve carrier accessto comparative Medicare payment information about
            new technologies.

    Recently, HCFA has given carriers accessto the carrier payment amounts that are stored in its
    files, such as in the Medicare Part B Annual Data Set (BMAD). The HCFA should explore the
    best ways of making such data available. Given the vast amount of data involved, it would
    probably bk preferable to disseminate the information selectively, perhaps through a query
    facility or as summaries, rather than through massdistribution to all carriers. Selective
    distribution would allow each carrier to give a more intensive review to the pricing decisions
    most relevant to its own experience.

    When carriers have the capacity to compare their payment amounts for particular new
    technologies with one another, those with unusually high or low amounts would quite likely
    reexamine the basesfor their payment determinations. Over time, the likely effect would be
    greater consistency in payment levels.

    3. 	    Review the performance of carriers in identifying, covering, and pricing specific new
            technologies.

    The HCFA should carry out such a review through regional office monitoring visits and
    through the annual Contractor Performance Evaluation Program. The HCFA should make



                                                   24 

 clear to the carriers that identification, coverage, and pricing of new technologies are essential
 parts of their role and that each will be considered in evaluating their overall performance.

 4. 	    Cooperate with the Public Health Service in proactively and routinely compiling and
         rapidly disseminating information on new health care technologies through clearing­
         housesor other appropriate means.

 Any such clearinghouse should be established with input from the carriers and in a way that
 maximizes carrier accessto information bearing on their identification, coverage, and pricing
 of new technologies. It should have clear operating parametersthat assureaccurate
 acquisition and rapid dissemination of data.

 To broaden the information baseand reduce unnecessaryduplication, HCFA and PHS should
 also pursue thepossibility of sharing the benefits and costs of the clearinghouse with other
 interested parties, such as the American Medical Association, Blue Cross and Blue Shield
 Association, Health Insurance Association of America, or the Institute of Medicine.

         The HCFA should seek legislaa’ve authority to broaden the bases upon which it
         can establish reimbursement amounts for new and emerging technologies other
         than physician services. This authority should be available to HCFA both at
         the time of the initial coverage decision and as the technology matures.

. The legislation should supplement current authorities by allowing HCPA to:

 (1) 	 limit initial payments basedon a consideration of the cost of developing and delivering
         the technology,

 (2) 	   subsequently reduce the allowable chargesfor new technologies as they mature in order
         to take advantage of reduced costs,and

(3) 	 establish regional or national reimbursement limits basedon simple and easily verifiable
      criteria such as the mere existence of substantial variation in reimbursement rates.




                                                25 

 >                        COMMENTS AND OIG RESPONSE

 In its written comments and at subsequentmeetings, the HCFA recognized that problems exist
 with the carrier assessmentof new technologies and noted that it has taken numerous recent
 initiatives to improve technology assessment. Some of the actions we recommended are
 included among the HCFA initiatives. The HCFA was concerned that our findings, at least in
 part, may no longer be valid becauseof its recent efforts. It asked the OIG to conduct an
 additional study aimed at assessingthe effectiveness of its recent initiatives.

 We agree that HCPA has moved to resolve the problems addressedin this study. For this
 reason we have removed from this report a statement, contained in the draft report, that the
 current procedures for carrier coverage and pricing of new technologies constitute a material
 internal control weakness within the meaning of the Federal Manager’s Financial Integrity
 Act. We have agreed to work with HCFA in evaluating the effectiveness of its efforts to
 improve carrier assessmentof new technology.

The HCFA agreed that additional legislative~authority would help it improve coverage and
pricing decisions for nonphysician services. The HCFA believes that physician payment
reforms recently enacted in the Omnibus Budget Reconciliation Act of 1989 (OBRA-89) will
provide an appropriate framework and sufficient authority to improve coverage and pricing
decisions relating to physician payments.

We agree and we have modified our legislative recommendations to focus exclusively on
nonphysician services. But we ate concerned about the practical aspectsof the new physician
payment reform provisions. In order to develop fee schedulesfor new and emerging treatment
modalities, HCFA must identify them We believe that the ability to identify emerging new
technologies is the area’of greatest weakness in the current system We are hopeful that
HCFA’s recent initiatives will be effective in addressingthis weakness. We will know more .
when our future evaluations, mentioned above, are completed.

We also remain concerned that the many Part B payments for nonphysician services, such as
durable medical equipment, prosthetics, and physiological testing, are not covered by the
payment reforms of OBRA-89 . We believe our legislative proposals are particularly
important for thesenonphysician services.

The HCFA disagreed with our recommendation for disseminating coverage and pricing
information among carriers through a clearinghouse becauseit would not be cost effective,
and becausecarriers do not use current clearinghouses. We continue to support this
recommendation. In our survey, the carriers themselvesasked for this kind of assistance. We
believe the current clearinghouses are too passive and often impracticably slow becausethey
rely upon specific requests from the caniers. What we have in mind is a more proactive and
orderly dissemination of information. We think that a more proactive clearinghouse would be
an effective way to do this, but we would support any other technique provided it is




                                              26 

aggressiveand systematic. We have modified the wording of the recommendation to make
our intent more clear.

The Public Health Service and the Office of the Assistant Secretary for Planning and
Evaluation both recognized the need to improve carrier coverage and pricing decisions. They
both supported the idea of a clearinghouse to sharecoverageand pricing information.

The Health Insurance Association of America and the Health Industry Manufacturers
Association also commented on our draft report. They agreed with most of our findings and
recomme,ndations.

The text of all comments and our detailed responsesto them are in appendix D.




                                             27 

                                   METHODOLOGICAL           NOTES

    CARRIERS

_ 	 We held discussions with representativesof the 45 geographic carriers that processed
    Medicare Part B claims during the summer of 1988, when our data gathering was completed.
    In those instanceswhen a single Blue Shield plan held contracts for more than one area (as
    Arkansas Blue Shield servedArkansas and Louisiana), we aggregatedtheir activities in all the
    areasand regarded them as one carrier with one medical director. For the commercial
    insurance organizations that held more than one contract, we regarded each field office (which
    may serve more than one State) as a separatecarrier. We did not interview the Railroad
    Retirement Board, whose function is primarily oversight, although it is often termed a carrier.

   We treated the carrier responsesto our questions asdependent variables and an,al$ed them
   against four independent variables: size, reGon, carrier type, and presenceof a medical
   director. We used the commercial software programs dBASE III Plus andLotus l-2-3 to
   accumulate and sort responses. For analyseswe used the Stat-Packetssoftware package of
   statistical analysis programs on a microcomputer. Using this software, we developed
   correlations and broke responsedata down into separatecategories for each independent
   variable.

   Size

   We ranked the carriers according to the aggregated total of Part B disbursementseach made in
   1986 as given in HCFA records. Using variance techniques, we identified four clusters of
   carriers differentiated on the basis of payments:
                                                                              Total
        Cluster                         Number of Carriers               Disbursements*

          1 (SmalIest)                        I7                          $1.75 billion
          2                                   17                          $5.29 billion
          3                                    8                          $7.11 billion
          4 (Largest)                          3                          $4.49 billion


  *This total of disbursements differs from the Part B payments in figure 1 becausethey draw
  on two different data sources. This total may not be complete; figure 1 is accuratefor the
  amounts paid out. The ranking of the carriers by size should not be affected by the difference.




                                                A-l
    Region

    We used the categorization developed by the U.S. Department of Commerce, Bureau of the
    Census. The four geographic regions of the country were the Northeast, Midwest, South, and
    West.

    Type of Carrier

    Of the 45 total carriers asdefined above, 27 were Blue Shield plans and 18 were commercial
    insurance organizations.

Medical Director

In preliminary discussions, we identified the medical directors at 29 carriers. The remaining
carriers either had no medical director or had none with responsibility for the Medicare
segmentof their business. During the course of this study we learned that HCFA has advised
the carriers that each would be required to have a medical director for Medicare beginning in
1989.

OUTSIDE OBSERVERS

We held discussions with representativesof organizations external to the carriers, each of
them related to and concerned with carrier technology assessmentactivities. These included:

.        four manufacturers of new technologies that were included in our casestudies (see
        _appendix B),

.	       five insurance organizations (including four medical directors not now active in
         Medicare work), and

.        three national organizations active in health care technology assessment.      .




                                                A-2 

                                        APPENDIX B

                                        CASE STUDIES

Following telephone discussions with medical directors at 21 carriers (separatefrom the study
interviews described in appendix A), and with physician consultants at Part A intermediaries,
Professional Review Organizations, or in private practice, we developed a list of 50
technologies that were characterized asrecent subjects of technology assessment.We reduced
the list to 12 that included a balance among new devices, diagnostic tests, and surgical
procedures. In making this reduction we included some highly innovative technologies along
with some incremental improvements.

In an introductory letter, we asked the carriers to give us the procedure codes they had used
for eachof the 12 technologies during 1985-87. (Our request asked for 13 technologies, but
the wording for one of thesewas ambiguous. We have excluded it from the analy_sis.)All
carriers should use the sameHCFA Common Procedure Coding System (HCPCS). Table
B-la summarizes the responses. Some, but not all and in no instance all 45, of the carriers
reported definite codes they used in processing claims for the 12 technologies. Absence of a
code could mean that the carrier had (a) not yet received a claim for the given technology, or
(b) not yet assignedit a distinct code, or (c) had made an affirmative decision against coverage
for the technology.

Tables B-lb and B-lc in this appendix summarize the carrier responseson numbers of codes
used. The number of codes for each technology indicates how closely the carriers adhere to
HCPCS. Subject to HCFA concurrence, carriers have within HCPCS the option to assign a
local code to an item or service in order to facilitate payment and utilization reviews. Carriers
may want to use local codes for new technologies until billing and use patterns have been
established.
          .
Following a review of the procedure codesreported by the carriers, we obtained from HCFA
the amounts paid during 1986 for &most common codes. We selectedfor detailed case.
studies five of the technologies that showed substantial volume of Medicare claims activity.
To the extent possible with such a small group we balanced.our selection to include devices,
tests,and techniques. We asked the carriers to identify:

.     the source that brought the new technology to the carrier’s attention,

.     the department that identified the new technology,

.     who made the coverage decision,

.     the criteria used in making the coverage decision,




                                              B-l
.     the external sourcesdrawn upon in making the coverage decision,

.     the methods used for setting a reasonablecharge,

.     whether the reasonablecharge had been changed, and

.     the methods used in setting the new reasonablecharge.

Tables B-2a through B-2e in this appendix summarize the carrier responsesto questions about
the coverage decision making process. The responsesin most categories total lessthan 45
becausewe directed questions on any given technology only to those carriers who had
identified a procedure code in responseto our introductory letter (except tissue plasminogen
activator, the subject of a national coverage decision in early 1988). Not all carriers answered
all questions that were directed to them, and some gave multiple answers,so the response
totals are not necessarily the samefor different questions about any one technology.

Table B-3 in this appendix lists averages,ranges, and standard deviations of the amounts
allowed by the carriers for each of three new technologies included in our casestudies.We
excluded tissue plasminogen activator from this listing becauseso few carriers reported
payments during the years 1985-1987. We excluded infusade pumps becausesome of the
available pricing data referred to surgical implantation of the device and some referred to
supplies used with the pump.




                                             B-2 

                                              TABLE B-la

     NUMBER OF CARRIERS REPOR77NG CODES FOR EACH TECHNOLOGY 

                             1985-1987

       TECHNOLOGY                                             1985            1986      1987

 Magnetic ResonanceImaging for                                 27              38        41
    Diagnosis of Stroke

Extracorporeal Shock Wave                                       7              41        44
     Lithotrips y

CochleaeDevice Implantation                                     6              38        41

Intracardiac Electrophysiological                              36              38      - 40
     Testing: Induction of Artythmia
     by Electrical Pacing

Real Tiie Cardiac Monitoring                                   23              29       43

PllnctLml Plug Procedure:                                      27              31       35
     Laser Canaliculoplasty

Plethysmography: Noninvasive                                  41              43        44
     vascular Diagnostic Testing of
     the Lower Extremity .

Infusade Pumps: Implantation and                              36              38        43     .
     Supplies

Transtracheal Oxygen: Tube Insertion                           18             19        25
    and Gas Supply

Laser Surgery: Trabeculoplasty                                40              42        44

Decompression of Median Nerve at                              29              30        33
    Carpal Tunnel: Arthroscopic or
    Laser Procedure

Tissue Plasminogen Activator                                  14              17        19


SOURCE:   Medicare Carriers as Reported to O#ice   of   Inspector General. HHS, 1988




                                                   B-3 

                                             TABLE B-lb

   NUMBER OF HCPCS PROCEDURE CODES 
 USED FOR EACH TECHNOLOGY
                            19851987 


      TECHNOLOGY                                           1985           1986        1987 


Magnetic ResonanceImaging for                               2                2          2

    Diagnosis of Stroke

Extracorpore~ Shock Wave                                   12                4          4

     Lithotripsy

Cochlear Device Implantation                                3                1          2


Intracardiac Electrophysiological                           8               8        - 10 

     Testing: Induction of Anythmia            -
      by Electrical Pacing

Real Time Cardiac Monitoring            *                  16              14          18 


Punctum Plug Procedure: Laser                               5               6           9

    Canaliculoplasty

Plethysmography: Noninvasive                                4               3           3

     Vascular Diagnostic Testing of
     he Lower Extremity

Infusade Pumps: Implantation and                           25              25          27       -

     Supplies

Transtracheal Oxygen: Tube                                  8               8          10 * 

Insertion and Gas Supply

Laser Surgery: Trabeculoplasty                              4               3           3


Decompression of Median Nerve at                            3               3           4

    Carpal Tunnel: Arthroscopic or
    Laser Procedure

Tissue Plasminogen Activator                                8               9          12 




SOURCE:   Medicare Carriers as Reporred IO Ofice Of Inspector General, HHS, 1988 





                                                   B-4 

                                             TABLE B-lc

   NUMBER OF LOCAL PROCEDURE CODES USED FOR EACH TECHNOLOGY 

                            19851987 


       TECHNOLOGY                                         1985           1986     1987 



Magnetic ResonanceImaging for                              0               0        0
   Diagnosis of Stroke

Extracorporeal Shock Wave                                  9               4        3
     Lithotrips y

Cochlear Device Implantation                               0               0        1

Intmcardiac Electrophysiological                           3               5 .     4
     Testing: Induction of Atrythmia
     by Electrical Pacing

Real Time Cardiac Monitoring                               2               1       0

Punctum Plug Procedure: Laser                              1               2       3
    Canaliculoplasty

Plethysmography: Noninvasive                               0               0       0
     Vascular Diagnostic Testing of
     the Lower Extremity

Infusade Pumps: Implantation and                           6               7       8
     Supplies

Transtracheal Oxygen: Tube                                                 1
    Insertion and Gas Supply

Laser Surgery: Trabeculoplasty                                            2

Decompression of Median Nerve at                                           1
    Carpal Tunnel: Arthroscopic or
    Laser Procedure

Tissue Plasminogen Activator                                              0


SOURCE: Medicare Carriers as Reported To Office of lnspecror General. HHS, 1988



                                                B-5 

                                                                                                      E                              JWO
                                                                                                      t         ssaualquuoseaa iuaJaqu1
                                                                                                      S                  sasm43 pwu
                                                                                                      c                        KaAJns
                                                  81                           aifuw ON               $1                 anpj     aqqa8
                                                  9                               -‘WI                81         amp33oJd alqeJvduJo3
                                                  01                              awaJ3uI              9                        %U!Il!cIWI

 st131mIv3               3312Id MPN           S~3ImlV3                         3312Id NI          Sfl3IZi2IV3                   aOH13W
30 83mmN              IIOd QOHl3W           do lI3m4ulN                   3aVW 3DNVH3           d0 2I38WnN                       IVLLINI
                                                               DNI3lkld
      91                          Jwo
      01                       SJayddng
      81                  sJaJnl3kywe~
       P                    sranrrd Jaw0                                                              LI                              J-310
      0                           alaS                                                                 9                          Jaiieuqq
      9                   ww    1=wa4                                                                 91                          Ue!3@r(d
      0                            Olid                                                                6                              aSJnN
      82                          VDH                                                                  2                           ww

  St13ImlV3                    3mav
do ll318MInN   do 3mnos    lVNlI3&LX3                                                           I QI312ItiV3
                                                                                                d0 ti3UMU1N I
                                                                                                                              a3ww
                                                                                                                            NOISI33a



                                                   02                                Jaw0
                                                    s                        www      341
                                                   21                      mapad uopaypn
                                                   a                               VW
                                                                                            I
                                               S2IBIUtiV3                   IN3WUIVd3a            SX312ItiV3        NOI.LV3IdI.LN3aI
                                             do ll3tlRflN                       831tl?BQ        d0 U3fIWfIN     lVLI.INI do 33mos
                                                            NOllW3ldllN3Cll


                                           9NI~OlINOMI       3kUll7l7’361 -AtYf?lS 3SV3
                                                               w-8 3lWl
     I                                  JWO                                                                          S                             Java
     0          ssaualqwoseay waJaquI                                                                               2          ssaualqeuoseay iuaJaqu1
     I                    SaaJw         pan3                                                                        01                  SaaJw paw8
     0                         swapa3au                                                                              c                        katins
     0                              6aNnS           '      PZ                               a~"W3 ON                 L                  anpA    aqqa~
     0                         au!u!d    d'a               0                                  asear3aa               6          ampa3oJd alqeredtuoa
     P                    hJols!H aaJl'?qD                 9                                   aseamq                z                     %u!u!ddeo

 St13IWV3                33iYd M3N                   S2I3ImlV~                           33IlId NI              !M3ImlV~                   (JOHl3lAI
30 ti3WUfIN           IIOd aOHI3W                  d0 tI38RnN                       3aVW 33NVH3                d0 ti38WnN                      IVIIINI
                                                                         DNl3ltld
     81                                 Jaw0
      P                        SJa!lddng
     9                    sJaJni3eJnueN
     S                      aarCed Jaw0                                                                             01                             ‘alllo
     2                                   alas                                                                        I                         JaBowN
     II                   Ww       I~PI~                                                                            02                         UE!a!S&j
     0                                OXd                                                                            L                            aSJnN
     L                .              VcI3H                                                                           I                           wJa0

  S~31mIV3                    3mav                                                                              S2I312I2D’3                    2I3YVW
doll38wnN     do 33mos     lVN83IX3                                                                            d0tlaswnN                   NOISI33(1
                                                                       '39W3AO3
                                                                                                                     !i                           s'aqlo
                                                           $1                                        Jarllo          6                   sJaJni3ejnueH
                                                            P                             suomati     3ard          0                     sa!repyauaa
                                                           6                         Maya~uuopmypn                  CI                       SUe!a!S&j
                                                           PI                                       swxl            92                            SU!W
                                                                                                           I
                                                        S8312ItiVD                      IN3WUIVd3a               Sti312I2IVD        NOI.LV3IdI.LN3aI
                                                    doll3awnN                               tl312ItIV3         d0 tl3fIWnN     lVI.I.INI do 33mos
                                                                     NOllV3lzlllN3Cll


                                               36ma330~d~n7dWnl3Nnd-Aanls3sw~
                                                                        w-a 3ltiVl
                                                                                         .                             ./.
                                                            8861   ‘SHH     ‘jVJ%+~   doJmdsu]Jo XJ@O OJ PiWodaU   SV ‘SJ2jJJt.Q   ~JV?lpi?ty   :93W()s   ,




     I                           JWO
     0          ssaualqeuoseaa iuaJaqu1
     1                   =a-=43 paw8
     0    -                  sJuapa3xd
     I                           Aarvns        91
     I                      ifu!~i!d dw        2
    81                  hols!H a;rJegD         12

                          33Itid M3N        S?J3182IV3
                      2.IOd aOH13W        d0 2I3tIWlIN                      3aVW 3DNVH3
                                                             DNl3lUd
     91                           Jaw0
     z                       SJqddIIS
     z                   smwepue~
     L                    sraKed ~atpo
     z                            alms
     EI                 AJa!mSI’W’W
     0                           OlId
     PC                         Vd3H

 slIs1mIv3                   3mav
do tmMulN     d0 33tlnOS lVNtI3.LX3



                                                91
                                                 s                              suopepa yq
                                                II                           Maya8 uopez!lpn
                                                91

                                            S2I312ItiV3                        1N3WDIVd3a
                                          d0 tI3OIWnN
                                                          N0l1W3l~llN3Cll


                                   tlY7tWSVA 'AHdV~00YYSAH137d-AUnlS3SV3
                                                             wa     3iavl
      0                            JWO                                                                         8                           '3410
      I         ssaualqeuoseaa JuaJaquj                                                                        8         ssaualqcuoseaa luaJaqu1
      E                  saanw ml!8                                                                            9                  saa=w    paw4
      0                      sluapawj                                                                          6                          KciT
      E                          AaNns                                                                         E                 anpA ayJeia8
      I                      3”!1I!d de0                                                amma                   S          ampa30Jd alqeJedwo3
      9                  kJols!H aifJWj3                                                 aseaf3uI              E                     ‘bu!ll!ti de0

 swHwv3                 3312Id M3N             S2I3IalIV3                         331lId NI               S2i3I?DIV3                 aOH13w
dOtl3tllulN           Hod (IOHA3W            d0 2IIBUWf’lN                   3aVW 33NVH3                d0 ll3IIWflN                  IVIJANI
                                                                  DNl3ltld
     21                            '3410
      II                       S’ayddnS             8                                       Jaw0
      SI                  sJaJnJ3Epuety            21                        ;dU!llaS aW!JdOJddy
      L                     sJaned Jaql()          22                              lgauau JuajJed              SI                           JWO
     .I                             a1irls         EZ                            axn?Jda33y ‘JO&#              c                        Jaileuefl
      01                 kJa!W wrw                 LI                                       JSo3               zz                      ue!a!snyd
      0                          OXd               1s                               Ssauayl~JJg                21                           asJnN
      PE                          VcIDH            174                                    mwx                   I                         l=!Jm

 St131UtiV3                  3mav              Sti3Il.UV3                                   a3sn          S2i3Ilil.iV3                83YVW
dolI38wnN     do 3mnos    lVNtl3JX3          d0 ti3tIWnN                             VIlI[B.LIlID       d0 lI38WnN                  NOISI33a:
                                                                39WkElAO3




                                                                                                    I

                                               S2IIBIlI2iV~                      LN3WUIVd3a               S2I312IlIVD        NOI.LV3IdI.LN3(lI
                                             d0 Y38WnN                               ‘tl3Itl8V3         d0 ll38WtlN      lVI.LlNI do 33mos
                                                              N0l1V3lzlllN3Cll


                                              diwd       3avsnm          - Aanls        3sw
                                                                 PZ-9318Vl
      I                           Jwo                                                                    0                              Jaw0
      0          ssauajqwosea~luaJaquI                                                                   z             ssaualqeuoseaa luaJaqu1
      0                   sasmw rwu                                                                      9                      sazmq3 vwfl
      0                      siuap3aaJd                                                                  P                             AaAJnS
      0                          cCahJns        61                              aifuw3 ON                E                      anrq aqgati
      I                      ~U!II!Ade0         0                                aseaJ3aa                P              ampa3oJd ajqeJedmo3
      I                   AJoJs!HaifJeq3         z                                aseaJ3uI              4          .               ~~U!II!Adw

 SU31titlV3               3318d M3N         S8312itIVC)                        33Itfd NI           StiIaItiItlV3                   (IOHL3W
lOlJ38PlnN             IIOd aOH.Law ,      d0 2rI38WtlN                   3aVW 33NVH3            d0 ti3fIWnN                         IVIIINI
                                                              9NI3IIJd
     91                            Jaw0
      1                        =‘!Iddns
      9                   sJaml3iyiue~
      S                     slaKed Jay0                                                                  II                             Jaw0
      0                           aims                                                                    z                          JaZkueM
      S                  Qaw    ~vrwv                                                                    PI                          Ui?!+tqd
      0                            OXd                                                                    L                              aanN
      81                         VDH                                                                     0                            wan

  S~3IlIlIV3                 3mav                                                                  SUBIti2.K)                        lI3ww
!lO83(IlmN     d0 33UfIOS lVN83.LX3                                                              d0 2I3UWnN                        NOISI33a
                                                             3Wkl3AO3
                                                                                                         81                             s’arllo
                                                 61                                  J=nO                01                     sJaJni3eguJety
                                                 9                           suogelaa-304~                0                      sa!Jeepgauaa
                                                 01                        Mapax uopaygn                 II                         SUE!3!Skqd
                                                 9                                 SWKJ                   6                            wen
                                                                                             I
                                             S?iI312I2iVZ)                  INBW.LUVd3a            Stl3I~~V3               NOLLV’3IdLLN3aI
                                           d0 2JIaflWfIN                        83IWIV3          d0 83UWnN             IVIUNI d0 332li-iOS
                                                          N0l1V3lzIllN3Cll


                                  ~01vA113v N39ONIkUSY7d 3nssu                    - Aanis        3sw
                                                             e-8   3lWl
                                                                                                  .

                                                 TABLE B-3 

                         AVERAGE AMOUNTS ALLOWED FOR NEW TECHNOLOGIES             .
                              NATIONAL AVERAGESAND RANGES, 19851987


TECIiNOLOGY                                              AVERAGE AMOUNT ALLOWED
                                  I
YEARS 	                                   NATIONAL                RANGE               STANDARD
                                          AVERAGE               LOW - HIGH            DEVIATION

REAL TIME CARDIAC   MONITORING:

1985                                        $94.40             $21.20-$ 178.71         $42.45
1986                                       $105.20             $23.82-$239.50          $52.5 1
1987                                       $125.71             $49.17~$251.10          $56.95


PUNCTUM   PLUG PROCEDURE:

1985                                  I    $173.91             $3X25-$774.36      . 	 $193.75
1986                                       $189.74             $3X38-$566.07          $168.68
1987                                       $179.02             $34.34-$926.76         $176.16


PLETHYSMOGRAPY,     VASCULAR:

1985                                       $55.35              $18X-$ 117.26            $24.50
1986                                       $64.43              $12.13-$ 151.86          $32.57
1987                                       $62.7 1             $14.92-$ 129.66          $30.85
.




                                             APPENDIX C

                                               GLOSSARY


    The cochiear implant is an electronic device that captures sound and converts it to an
    electrical signal. It improves hearing by stimulating the auditory nerve.

    Decompression of the median nerve at the carpal tunnel is a procedure to releasetight bands
    of tissue that may develop and presson the nerve where it passesunder the arch formed by the
    bones of the wrist

    Extracorporeal shock wave lithotripsy (ESWL) provides for the pulverization of kidney or
    gall stonesby focused ultrasonic shock waves. It offers an alternative to invasive surgery or
    to drug maintenance therapies.

    Infusade pumps are devices that dispensemedication slowly and continuously into a blood
    vessel over extended periods of time. Implanted in the body and reftlled by injection, they
    allow the patient to remain ambulatory and to control levels of medication.

    Intracardiac electrophysiological testing is an invasive diagnostic tool that stimulates the
    heart beating with an electrode introduced into a heart chamber. Electrical signals am
    imposed out of phase with established rhythms to study the speed and quality of recovery to
    the heart’s normal beats.

    Magnetic resonance imaging (MRI) is a method of showing the size and shapeof body
    cavities and tissues. It is capable of demonstrating a wide variety of soft tissue lesions, and it.
    avoids use of potentially harmful radiation or injected contrast media.

    PIethysmography is measurement of changes in the size of a part of the body in responseto
    the circulation of blood. It is often used to assessblood flow in the veins of the legs.  .

    The punctum plug procedure places stoppers at the openings into the drainage tubes through
    which tear fluid runs out of the eye. It is used to retain fluid in patients who experience “dry
    eye.”

    Real time cardiac monitoring records out-of-the-ordinary episodes of heart activity when the
    patient is in an ambulatory setting and about the normal tasks of ordinary life.

    Tissue plasminogen activator (‘PA) is a naturally occurring enzymatic protein that
    promotes breakup of blood clots. It is available as a genetically engineered drug for use in
    treating heart attack patients.




                                                   C-l
l’kabeculoplasty, whether or not performed with a laser “knife”, is a procedure to open the
pores through which fluid drains from the front part of the eye. It allows increased flow of
fluid (aqueoushumor) out of the eye, helping to relieve built-up pressurein casesof glaucoma.

Transtracheal oxygen is delivered through an opening in the neck, instead of through the
nose. The method can be more effective in getting oxygen to a patent’s tissues,and it can
consume less oxygen in achieving the sameeffect.




                                           c-2
,
                                      APPENDIX D 


            COMMENTS ON THE DRAfl                REPORTAND      O/G RESPONSES

In this appendix we provide the verbatim comments on the draft report by the Health Care
Financing Administration (HCFA), the Public Health Service (PHS), the Assistant Secretary
for Planning and Evaluation (ASPE), the Health Industry Manufacturers Association (HIMA),
and the Health Insurance Association tif America @BAA). In each case,after presenting the
comments, we offer our response to the comments.

With respect to HCFA, the operating agency to which each of our recommendations is
directed, it is important to note that subsequentto receipt of its written comments we held
meetings with HCFA to discuss the agency’s concerns about the report’s findings and
recommendations. At these meetings HeA officials discussedproblems which exist with
carrier assessmentof new technologies, and indicated that the agency has taken recent
initiatives to improve technology assessmenf

Some of the actions we recommended are included among the HCFA initiatives. The HCFA
was concerned that our findings, at least in part, may no longer be valid becauseof its recent
efforts. It asked the OIG to conduct an additional study aimed at assessingthe effectiveness
of its recent initiatives.

We agree that HCFA has moved to resolve the problems addressedin this study. For this
reason we have removed from this report a statement, contained in the draft report, that the
current procedures for carrier coverage and pricing of new technologies constitute a material
inter&l control weakness within the meaning of the Federal Manager’s Financial Integrity
Act. We have agreed to work with HCFA in evaluating the effectiveness of its efforts to
improve carrier assessmentof new technology.

The HCFA agreed that additional legislative authority would help it improve coverage and
pricing decisions for nonphysician services. The HCFA believes that physician payment
reforms recently enacted in the Omnibus Budget Reconciliation Act of 1989 (OBRA-89) will         *
provide an appropriate framework and sufficient authority to improve coverage and pricing
decisions relating to physician payments.

We agree and we have modified our legislative recommendations to focus exclusively on
nonphysician services. But we are concerned about the practical aspectsof the new physician
payment reform provisions. In order to develop fee schedulesfor new and emerging treatment
modalities, HCFA must identify them. We believe that the ability to identify emerging new
technologies is the area of greatest weakness in the current system. We are hopeful that
HCFA’s recent initiatives will be effective in addressing this weakness. We will know more
when our future evaluations, mentioned above, are completed.




                                             !

                                             D.- 1
We also remain concerned that the many Part B payments for nonphysician services,such as
durable medical equipment, prosthetics, and physiological testing, are not covered by the
payment reforms of OBRA-89 . We believe our legislative proposals are particularly
important for thesenonphysician services.

The HCFA disagreed with our recommendation for disseminating coverage and pricing
information among carriers through a clearinghouse becauseit would not be cost effective,
and becausecarriers do not usecurrent clearinghouses. We continue to support this
recommendation. In our survey, the carriers themselves asked for this kind of assistance. We
believe the current clearinghousesare too passive and often impracticably slow becausethey
rely upon specific requestsfrom the carriers. What we have in mind is a more proactive and
orderly dissemination of information. We think that a more proactive clearinghouse would be
an effective way to do this, but we would support any other technique provided it is
aggressiveand systematic. We have modified the wording of the recommendation to make
our intent more clear.

Following are the written comments we received on the draft report and our responsesto them.

HEALTH CARE FINANCING ADMINISTRATION (HCFA) COMMENTS

We have reviewed the above draft report. OIG statesthat its findings demonstrate “the lack of
an effective system to identify, track, and diffuse information about new technologies and to
decreaseMedicare payments to capture economies of scale when theseflow from new
technologies.” According to the report, this alleged deficiency constitutes a material internal
control weaknesswithin the meaning of the Federal Managers’ Financial Integrity Act and the
Office of Management and Budget Circular A-123.

We do not agree with this conclusion. We believe that the report does not offer sufficient      .
evidence to support its major findings. Also, the report does not reflect the statutory context
within which carrier assessmentof new technology is made. Finally, the report does not
addressthe recent significant changes.already affecting the technology assessmentprocess,
even though thesewere discussedwith OIG stafTat an exit conference on August 2.

More detailed comments on the report’s findings and recommendations are attached. Thank
you for the opportunity to review and comment on this draft report.

OIG statesin the report, “the conditions identified in our findings collectively show a material
internal control weakness....” The report has three major findings upon which this allegation
of a material weaknessis based Our comments on these findings follow:

Finding 1 - Unwarranted Variation

      Extensive and apparently unnecessaryvariation exists among the carriers in
      coverage and pricing decisions involving new technologies.




                                              D-2 

Response

The mere existence of variation in coverage and pricing decisions does not necessarily
indicate a problem. The Medicare program was designed from the outset, in both statute and
regulations, to reflect local practice and pricing conditions. Furthermore, basedon the data
presentedin this report, it is difficult to reach any conclusion regarding the degreeof variation
(unwarranted or not) that exists among the carriers in covering or pricing new technologies.
Thus, the extent of the alleged problem cannot be addressed.
.     Coverage of New Technologies

      In terms of coverage decisions, the report does not give an example of any
      unwarranted variation, nor does it offer any evidence as to the scope of the
      variations between carriers. The report finds instead that, in responseto a survey
      question, “respondents at one-third of the carriers say that the carriers, as a group
      are at most minimally consistent in making coverage decisions about new -
      technologies” (Page 12). The report d&s add that an equal number of cafriers
      statedthere was at least moderate consistency, and another equally sized group
      had “no opinion.” The ambiguity of this responsecalls into question the
      effectiveness of the survey, but, more fundamentally, we would question the use
      of a survey as a substitute for an analysis of actual coveragedata.

      The only “hard” data on carrier coverage of new technology are presentedin table
      II-A-l. This table purports to show the number of carriers covering each of 12
     _	selectedtechnologies from 19851987. The figures presentedfor 1987 in this
      table appear to indicate that the carriers are relatively consistent in their coverage
      decisions.

      Moreover, in the narrative which precedes this table, OIG describes its
      methodology for obtaining the coverage data, i.e., the carriers were asked to give
      the procedure codes used for each of the 12 technologies. From this information,
      OIG apparently inferred which carriers covered what technologies. However,
      coveragedecisions cannot necessarily be inferred from the presenceor absenceof
      a code. A catrier can decide not to cover an item for which a code already exists,
      or may cover an item or service for which no code exists by using one of several
      “not other&ise specified” codes available. OIG may have gathered data on
      carrier coding, but it is not possible to know for sure what thesedata say about
      carrier coveragedecisions.

.     Pricing of New Technologies

      The report does not identify any overall financial effect so that the significance of
      the problem can be evaluated. The only comparative figures arc found in table
      II-C. This table hasdata for only three technologies, each of which shows a wide



                                              D-3 

       range of carrier payment levels. However, OIG does not disclose the array of
       payments. This makes it impossible to tell if the variation is causedby one or
       two aberrant carriers, with most of the payment levels clustered near the average,
       or whether the randomnessis broad based Without this information, it is not
       possible to evaluate the significance of the range.

      There are even more fundamental methodological problems with the data as
      presented. It would appear that OIG did not ask the carriers what their prevailing
      rates were for the technologies in question. Rather, according to the explanation
      given on page 17, they took the various procedure codesreported to OIG for the
      three technologies, then usedHCFA’s Part B Medicare Annual Data System
      (BMAD) to determine the allowed payments for thesecodes. However,
      according to table II-A-2, there were several codesreported for each technology
      (18 for real time cardiac monitoring, 9 for punctum plug procedure, and 3 for
      plethysmography), and thesedifferent codes may not representprecisely the same
      service. There are different procedures that can group under each technology and
      different ScTvicesthat could be included in thesecodes (e.g.; technical component
      vs. physician services). It appearsthat OIG lumped the data from all the codes
      together. Thus, it is not possible to determine bow much the variation in allowed
      amounts reflects an inadvertent comparison of different items, or how much is
      actually due to variations in carrier pricing decisions.


OIG Finding 2 - Economies Not Realized

     . Carriers have no system for ensuring that payments for new technologies
       decreasein responseto decreasing costs for delivering an item or service.

Response

As OIG makes no attempt to define the financial effect of this finding, the significance of the
problem is not clear. The evidence that economies have not been realized relies, fust,
on the opinion of “respondents at half the carriers” that the cost of delivering a new product
decreases(Page 19), and second on the fact that the actual pricing of the sample technologies
did not decrease. There are no concrete and factual data presentedto show that the actual
costs of thesetechnologies did in fact decreaseover the time period studied.

The report criticizes the carriers for not taking special initiatives to “capture savings for
Medicare when the cost of providing a new technology decreases”(Page 19). OIG does not
take into consideration the considerable statutory constraints that a carrier faces in taking such
an initiative. Medicare law statesthat the criteria for detetmining a reasonablecharge for a
physician service are the customary chargesfor similar servicesmade by the person furnishing
the service, and the prevailing chargesin the locality for similar services. Thus, it does not
generally follow that the pricing of the sampled procedures would decline, as annual pride
adjustments are necessarily basedon submitted charges.



                                               D-4 

OIG also makes frequent reference to the fact that few carriers apply inherent,reasonableness
to lower the pricing of technologies. The OIG ignores the statutory realities. Since 1985,
Congress has acted to restrain the useof inherent reasonablenessas a pricing criterion.
Carriers are no longer free to apply inherent reasonablenessto physician services, which
would constitute the bulk of chargesfor new technologies. If HCFA wishes to apply factors
other than reasonable chargesin determining whether a charge is inherently reasonable,we
must fmt publish a notice in the Federal Register to that effect.

Finding 3 - Little Guidance to Carriers

      While HCFA has made strides in specifying overall proceduresfor coverage
      decisions, it gives little practical guidance to carriers on coverageand pricing
      matters.

Response

Medicare law authorizes the Secretary to enter into contracts with carriers for performance of
payment and coverage functions. This basic approach of Medicate operations appearsto be
disregarded by OIG when discussing the relationship between HCFA and the carriers. The
case studies in the repat indicate that the carriers often seek and receive advice from HCFA.
The report also statesthat HCFA will make a national coverage decision binding on the
carriers, when “it has become apparent that different carriers have made inconsistent coverage
decisions” (Page 2). OIG has not produced evidence that HCFA has failed to fulfill the
objectives of the law in this regard-

The report also fails to take fully into account the following initiatives taken by HCFA to
update the coverage processand to improve and.increasecommunication between HCFA and
the carriers.

.	   On January 30,1989, HCFA published a proposed rule in the Federal Register which
     describes the coverage processin detail and which makes explicit the criteria that are to
     be applied when making coverage decisions. This important initiative, which for the
     first time would include cost-effectiveness asa covemge criteria, was essentially
     relegated to a footnote in this report

.	   HCFA is requiring that carriers must submit a copy of all medical coverage policy by
     September 30, 1989. This policy will be reviewed to identify carriers with widely
     variant policy.

.	   Effective October 1,1988, carriers were required to have licensed physicians as medical
     directors.

*	   HCFA is committed to holding an annual Medical Directors’ Conference, though in
     practice, these conferences have been held on a semiannual basis since December 1988.



                                              D-5 

      During the May 1989 conference, a half day was devoted to the subject of new
      technology assessment.

.	    HCFA’s Coverage and Payment Technical Advisory Group, which includes selected
      carrier physicians, and the HCFA Physicians’ Panel both discuss emerging technology
      and coverage issues.

.	    In recent years, there has been significant pricing guidance given to carriers on new
      technologies. The instructions on magnetic resonanceimaging and the technical
      component of cardiac catheterization are two examples. We are in the processof
      carrying out an evaluation of the reasonablenessof price levels for real time cardiac
      monitoring. When this is fmished, the results will be communicated to the carriers.

Comments on Specific Recommendations

Recommendation I

HCFA and the Public Health Service (PI%) should cooperatein establishing a clearinghouse
devoted to the compilation and dissemination of information on new health care technologies.
The clearinghouse could be established either within the Department or through contract with
a private entity.

Response

We do not concur with this recommendation. The report does not demonstrate that this would
be a cost-effective alternative to the recent initiatives we have described above. In addition,
this recommendation appearsinconsistent with OIG’s own findings, since the report itself        .
suggeststhat carriers do not use information already available from existing clearinghouses.
In this regard, the report does not mention the clearinghouse function of the National Center
of Health Services Researchand Health Care Technology Assessmentwithin the PHS.

Recommendation 2

HCFA should foster greater consistency among the carriers in their coverage and pricing
decisions concerning new technologies by:         ,

.	    Improving communications among the carriers by fostering increased use of national
      and regional technical advisory groups.

.	    Providing the carriers with selective accessto comparative Medicare payment
      information about new technologies.




                                              D-6 

.	    Reviewing on a regular schedule the performance of carriers in identifying, covering
      and pricing specific new technologies.

Response

We agree that we should constantly foster improvements in our carrier decisionmaking
processwith regard to new technologies. It is becauseof this commitment that we have
undertaken many of the initiatives listed above. Given the extent of theseinitiatives, we do
not believe that the specific actions included in the OIG recommendation are necessaryat this
time.

Recommendiztion 3

HCFA should seek legislative authority to broaden the basesupon which it can establish the
reasonablecharge for a new technology, both at the time of initial coverage and after the
technologyhas assimilated into the marketplace.

Response

We do not concur with this recommendation. This recommendation is largely a proposal that
HCFA be given increased authority to apply inherent reasonableness. However, Congress has
only recently stated its position, by acting to restrict further the Secretary’s authority. It is
clear that Congress has no interest in easing the administrative burden that Congressitself
imposed on applying inherent reasonableness.

Also,.under pending legislation, the physician payment system will change radically. With a
national fee schedule using a resource cost-basedrelative value system, carrier discretion to
price physician services will be virtually eliminated. Therefore, there would be little current -
interest in Congress in making procedural adjustments in the reasonable charge system.

OIG RESPONSE TO HCFA WRIT)-EN COMMENTS

We believe that the report does offer sufficient evidence to demonstrate the lack of effective
systemsto identify, track, and diffuse information about new technologies and the inability of
the system to decreaseMedicare payments to reflect economies that flow from new
technologies.

Becausethe systems do not exist, the information desired by HCFA is practically impossible
to obtain. We therefore collected information using discussion guides and mail surveys of the
very carriers who would operate any effective system We also obtained new data about a few
specific technologies to illustrate the points we raised. We believe that the carriers’
experiences and observations collected in the report, along with the casestudies, support the
findings and recommendations.




                                              D-7 

We agreewith HCFA that the report should reflect the statutory context within which carrier
assessmentof new technology is made. We did not mean to imply that HCFA was rem& in
failing to use its statutory authority. On the contrary, we believe that HCFA has been thwarted
in its efforts by ambiguous statutesand complex procedural requirements. In the final report
we havemade the context more explicit. Also in the final report, we have recognized more
completely HCFA’s recent initiatives to update the coverageprocessand improve
communication. These are significant steps. Our report recommends additional beneficial
stepsderived from the carriers own experiencesand perceptions.

Finding 1 - Unwarranted Variation:

The HCFA statesthat variation in coverage and pricing decisions does not necessarily indicate
a problem; variation was designed into the program from its outset in 1965. But the OIG
report speaksof unwarranted variation. Neither OIG nor the respondentsto the survey finds
any basisfor the extent of variation perceived by the takers. Although the extent of variation
contemplated by the architects of Medicare is not defined for coverage and pricingactivities,
there are some guides available that allow us-to place the variation in context:

.	    We found average amounts allowed for new technologies varying by factors of five
      among ctiers. In contrast, economic indices such aspersonal income or cost price
      indices rarely vary by a factor as much as two between States.

.	    Carrier medical directors perceive the variation in coverageamong carriers as well in
      excessof the variation on medical practice among States. They observe that medical
      practice today in 1989 is much more uniform nationally than it was at the outset of
     -Medicare in 1965.

.	    Small and remote carriers report that they seenew technologies soon after general   -
      professional acceptance. Any advantage for the major medical centers operatesduring
      the investigative phaseof the technology.

.	    Manufacturers of new technologies operate in a nationwide market. Only rarely do
      manufacturers make new technologies available in limited areasof the country.

The HCFA statesthat the survey question on consistency is a questionable substitute for
analysis ot actual coverage data. As previously mentioned, we believe that the carriers’
perceptions and the casestudies provide ample basisfor a finding that coverage and pricing
decisions are inconsistent. However, we modified our finding to indicate that some, but not
all, of the variations arc unwarranted. We are particularly concernedabout variations in
pricing.

The HCFA correctly statesthat the data in table n-A-1 (now table B-la) of the draft report
refer to codes used, not to coverage decisions. We haverevised the table and the discussion in




                                             D-8 

 the text to correct this en-or. But we should emphasize that the conclusion is not changed. 

 The sameitem or service is treated differently by different carriers. 


We found no evidence that carriers make decisions not to cover, they just do not make the 

decision to cover. If the data in table B-la are taken at face value, they show extensive 

variation in what is supposedto be a uniform national coding scheme,and raise a question as 

to how well the HCPCS applies to new technologies. If, however, the implication drawn by 

the OIG is correct, and the absenceof a code indicates absenceof coverage for a new 

technology, that raises a question as to how equal is the accessdifferent Medicare 

beneficiaries have to what is supposedto be a nationally distributed new technology. 


The HCFA statesthat the draft report does not disclose arrays of allowed amounts in table II-C 

(now table B-3) and does not identify any overall financial effect. We agree that the 

dispersion in allowed amounts should be shown more completely than through the sample in 

figure 8. Accordingly, we have added standard deviations to table B-3. These clearly show 

that the variations are subs&n&I. Since our choice of technologies and thereforethe data on 

averageallowed amount are illustrative, we should not and do not project financial effects. 

We found that variation exists, and it exists for some critical new technologies. We did not 

attempt to audit all new technologies: 


The HCFA statesthat there are fundamental methodological problems with the use of HCPA’s 

Part B Medicare Annual Data System (BMAD) and with lumping together the data for 

different codes. We used BMAD becausethat gives the best available measureof what was 

actually paid. Prevailing charges would give what should have been paid under ideal 

conditions. 


Similarly, the use of diffe.Ent codes by different carriers would have made any comparison by 

individual code meaningless. We asked each carrier the samequestions, in the samewords, -

and we used BMAD to translate their responsesinto allowed amounts. Our averagesdo 

average everything the carriers include under each new technology. We recognize that there 

are different levels within each technology but we choose to report each as a group. 


Finding 2 - Economies Not Realized: 


The HCFA statesthat no concrete and factual data are presented to show that the actual costs 

decreasedand that the financial effect is not defined. However, since neither HCFA nor the 

carriers routinely identify new technologies or keep track of payment trends as these 

technologies mature, such data is practically nonexistent. Nevertheless, we gathered the 

carriers’ own perceptions about cost trends for new technologies. We reported on the apparent 

contradiction between the Iarge number of respondentswho believe that costs decreaseand 

the absenceof any affirmative effort to reflect theseperceived cost decreadesin Medicare 

reimbursement amounts. 


The HCFA statesthat the report does not take into account the criteria for determining a 

reasonablecharge and the statutory constraints on HCFA and the carriers in use of inherent 




                                              D-9 

:




    reasonableness. We agree, and we have modified the background section of the final report
    accordingly. Becauseof these factors we recommended, and continue to recommend,
    legislative action.

    Finding 3 - Little Guidance to Carriers:

    The HCFA statesthat the evidence in the report does not show HCFA to have failed to fulfill
    ihe objectives of the law in relation to carriers as Medicare contractors. The purposeof this
    study is to identify ways for HCFA and the carriers to better achieve their objectives, changing
    the structure only when a change is needed We found that the carriers collectively believe
    that they, and HCFA, can do better at assessmentof new technologies. Our recommendations
    addressthe carriers’ need in this axea.

    The HCFA statesthat the report does not take fully into account HCFA’s initiatives to update
    the coverageprocessand to improve communication between HCFA and the carriers. We
    agree, and we have taken more complete note of these in the final repon          -

    Recommend&ion      I - Clearinghouse:

    The HCFA rejects our recommendation for a clearinghouse stating that it is not shown
    cost-effective, that carriers don’t use existing clearinghouses, and that the clearinghouse
    function of the National Center of Health Services Researchand Health Care Technology
    Assessment(NCHSR/HaA) is nqt mentioned.

    We continue to support our recommendation. The carriers themselveswant something
    existing clearinghouses do not offer, prompt accessto coveragebackground and also pricing
    information. The HCFA initiatives don’t give the carriers this kind of information. The
    means to provide such information promptly to the caniers can and should be developed more
    strongly. What we are advocating is a more active strategy for disseminating information to
    take the place of one that relies on the carriers to request information. We think that a
    clearinghouse can be an effective way to do this, but we would support any other technique
    provided it is aggressiveand systematic. We have modified the wording of our
    recommendation to clarify our intent.

    Limitations of the existing clearinghouses make it all the more important for HCFA to
    exercise leadership in prompt sharing of information that is useful to the carriers in assessing
    new technologies. If, as the carriers believe, information sharing will eliminate unnecessary
    duplication of effort, then carrier use of the clearinghouse would be cost beneficial. The role
    of the NCHSR/HCTA clearinghouse function will have to be reconsidered now that OBRA-89
    hasreplaced NCHSR/HCTA with .theAgency for Health Care Policy and Research.

    Recommendation    2 - Foster Consistency:

    The HCFA agreesthat they should constantly foster improvements in the carrier decision
    making processesfor new technologies. We have statedabove that the HCFA initiatives are a



                                                 D- 10 

 valuable beginning. Regional meetings and Technical Advisory Groups similar to the the New
 York Region’s Medical IssuesTechnical Advisory Group (MITAG) model hold promise as
 effective ways to foster active and ongoing communication among carriers, with HCFA in its
 proper oversight role. We also recommend that HCFA continue to find ways to give caniers
 selective accessto pricing information. The recent initiative of supplying BMAD data is a
 good start. This is the very data we used for our casestudies. But, as HCFA has remarked, it
 has its limitations, especially given the discretionary nature of coding of some services.
 Further, we recommend that HCFA, in reviewing the carriers’ performance, give special
 attention to new technology. The respondentsto our survey (medical directors) either had no
 knowledge of the Conttactor Performance Evaluation Program (CPEP) process or little
 understanding of its function. They reported that it did not relate at all to their technology
 assessmentactivities.

Recommendation 3 - Seek Broad& Basesfor Pricing in the Law:

The HCFA rejects our recommendation, stating that it amounts to expansion of inlZrent
reasonablenessauthority, which it goes on tostate the Congress wants to restrict. Also,
HCFA statesthat the recently enactedresource basedrelative value system for physician
payment will soon make this issue moot.

We agreeand we have modified our legislative recommendations to focus exclusively on
nonphysician services. But we are concerned about the practical aspectsof the new
provisions. In order to develop fee schedulesfor new and emerging treatment modalities,
HCFA must identify them We believe that the ability to identify emerging new technologies
is the areaof greatest weaknessin the current system We are hopeful that HCFA’s recent
initiatives will be effective in addressingthis weakness. We will know more when our future
evaluations, mentioned above, are completed.

We also remain concerned that the many Part B payments for nonphysician services, such as
durable medical equipment, prosthetics, and physiological testing, ate not covered by the
payment reforms of OBRA-89. We believe our legislative proposals are particularly
important for these nonphysician services.

PUBLIC HEALTH SERVICE (PHS) COMMENTS

General Comments

Through the Office of Health Technology Assessment(OI-ITA), PHS is involved in the Health
Care Financing Administration (HCFA) processfor making national coverage decisions for
health care technologies. However, this relationship on the part of OHTA does not directly
involve the activities of the Medicare carriers, particularly where pricing matters are
concerned.

A review and analysis of table II-A- 1, “Number of Carriers Covering Each Technology
1985-1987,” in the OIG report indicates the usefulnessand necessity for technology activities.



                                            D- 11 

While a clearinghouse is necessaryfor compiling and disseminating information, completed
assessmentreports by PHS and subsequentMedicare Coverage Instructions make carrier
coverage decisions easier and more consistent. For technologies assessmentby OHTA such as
Trabeculoplasty, Cochlear Device Implantation and Extracorporeal Shock Wave Lithotripsy
most carriers were consistent in their coverage decisions. Also evident is the fact that even
where a National Coverage Decision has been made by HCFA such as in the caseof Pacing,
not all carriers are aware or consistent with the HCFA Position for that technology or
procedure.

The following are our comments on the OIG recommendations.

OIG Recommendation

The Health Care Financing Administration and the Public Health Service (PHS) should
cooperate in establishing a clearinghouse devoted to the compilation and dissemination of
information on new health care technologies. ‘Ihe clearinghouse could be establishedeither
within the Department or through a contracf with a private entity.

PHS Comment

We concur in general with this recommendation. The OIG report makes reference to the
PHS-supported Institute of Medicine (IOM), Council on Health Care Technology
clearinghouse function which is already operational The report notes, however, that few
carxiersdraw on this resoume aswell as other efforts providing technology information. The
availability and Iocation of a clearinghouse devoted to the compilation and dissemination of
information on new health care technologies may not be asmuch the issue as the needto get
Medicare carriers to utilize the existing resources. Furthermore, the reliance of Medicare
carriers on a national clearinghouse for their technical information will certainly addressthe -
concern raised in the OIG report for greater consistency among carriers in their coverage
decisions. *

Regardlessof the organizational location of the clearinghouse, the Department or‘IOM,
adequatefunding for such an endeavor is paramount for a successfulprogram.
Reorganization legislation being considered for the National Center for Health Services
Researchand Health Care Technology Assessment(NCHSR) may place the IOM
clearinghouse function within the National Library of Medicine. PHS is in full agreement
with the OIG report that there is a need for a national clearinghouse; however, the support for
the clearinghouse functions already operational may be preferable to seeking the
establishment of a clearinghouse within the Department. Should the Department be
encouraged to established a clearinghouse then consideration and funding for the operation
could be given to the Division of ResearchDissemination and External Liaison (Division)
within NCHSR. The Division is responsible for disseminating the assessmentsof OHTA and
has a mailing list of approximately 25,000 people and organizations.




                                             D- 12 

 OIG Recommendation

The Health Care Financing Administration should foster greaterconsistency among the
carriers in their coverage and pricing decisions concerning new technologies.

PHS Comment

Even though this recommendation is directed to HCFA, PHS concurs in general with it. PHS
is aware of the inconsistency in contractor coveragedecisions as well as HCFA proposals to
addressthis issue. The stepsoutlined by HCFA in the Federal Register, January 30, 1989, (54
FR 4302) regarding “The Medicare Program: Criteria and Proceduresfor Making Medical
Services Coverage Decisions that Relate to Health CareTahnology” seem appropriate and
adequatefor obtaining g-resterconsistency in the coveragedecisions of Medicare Carriers.

OIG RESPONSE TO PHS COMMENTS

We welcome PHS support for a clearinghouse and we agreethat there is a need to get
Medicare carriers to utilize existing resourcesmore effectively. We encourageHCFA and
PHS to atrange a meeting of’all interested parties to discussoperating alternatives, including
use and organizational location of the IOM clearinghouse function. We agreewith the PHS
statement that, regardless of the organizational location of a clearinghouse, adequatefunding
is paramount for a successful program.

We note that PHS is aware of the inconsistency in contractor coveragedecisions as well as
HCFAproposals to addressthis issue. The proposed rule on coveragedecision making is an
important first step, but this alone is not enough. The carriers are looking for more effective
guidance from HCFA, better.communications among themselves,and quicker more extensive
sharing of national Medicare data with the carriers by HCFA. The MITAG discussions
provide an attractive model for improving communications.

ASSISTANT SECRETARY FOR PLANNING AND EVALUATION (ASPE)
COMMENTS

We have been concerned about HCFA’s coverage determination processfor some time and
welcome and support your recommendations to improve coveragedecision making.

OIG Recommendation

Establish a joint HCFA/PHS clearinghouse on new technologies.

ASPE Comment

We support a joint clearinghouse, but would prefer it to be maintained within the Department,
rather than contracted out to a private entity. We believe that an in-house clearinghouse would
offer significant advantages in terms of cooperation and rapid dissemination of information.

                                               ?
                                             D-13
                                                 ‘:
In addition, we suggest that substantive linkage among the Effectiveness Initiative, technology
assessmentactivities of NCHSR, and the recommended HCPA/PHS clearinghouse could have
synergistic effects on all three.

Since carriers do not utilize existing national technology sources,it is imperative that the
clearinghouse take the initiative to communicate with the carriers and foster communication
among carriers.

OIG Recommendation

HCPA should seek legislation to increaseits authority to make reasonable charge
determinations for new technologies both at the time of initial coverage and after the
technology has been assimilated into the marketplace.

ASPE Comment                                                                        -
With the Congresslikely to implement an RBRVS sometime in the near future, it becomes
even more important that HCFA acquire and exercise authority to setreasonable charges (and
presumably soon, relative values) for new technologies and other newly covered items and
services as well as the authority to revise such chargesand relative values as circumstances
WXElllt.

Thank you for sharing your report with this office.

OIG RESPONSE TO ASPE COMMENTS

We welcome ASPE support for a clearinghouse which takes the initiative to communicate
with carriers and foster communication among carriers. We encourage HCFA and PHS to              *
arrange a meeting of all interested parties to discuss operating alternatives, including whether
an in-house clearinghouse would offer significant advantagesin terms of cooperation and
rapid dissemination of information.

We agree with ASPE that HCPA needsto acquire and exercise authority to set reasonable
charges,and also the authority to revise charges.

HEALTH INDUSTRY MANUFACTURERS ASSOCIATION (HIMA) COMMENTS

Thank you for your August 16 letter transmitting a copy of your “Medicare Carrier
Assessmentof New Technologies” August draft report (Draft Report). Medicare assessment
of medical technologies, at both the national and local levels, has a significant impact on our
members-manufacturers of medical devices, diagnostics and health cam information
systems. Since 1986, HIMA has been quite involved with the Medicare coverage and
payment process. We appreciated your contacts with our organization during the research
stagesof this Report and we welcome the opportunity to comment on the Draft Report.




                                              D- 14 

 Your study is particulady important in view of the unique challenges which technology
 innovation presents. Continual researchon medical devices and diagnostics makes innovation
 both rapid and incremental. The assessmentprocessis often time consuming and results in a
 snapshotof medical practice. Carriers face the difficult task of keeping their policies
 up-to-date with current medical knowledge.

The fohowing comments addressissuesin your report in the sequencethey appear in the Draft
Report.

A.      HIMA COMMENTS ON IG FINDINGS

 1. 	   Technological innovation has not been the major cause of Medicare Part B payment in-
        creases. Rather, new devices have allowed many services to be performed in a more
        cost-efficient location-the outpatient setting-contributing   to Congressional and Ad-
        ministration goals under the prospective payment system
                                                                                    -.
        The Draft Report statesthat HCFA and OTA studies show that new health cam
        technologies account for a substantial portion of the annual increasein Part B
        payments (page 2). The data in the report attributed 50% of this increase to
        inflation and 37% to increases-inutilization.

        A clear objective of Congressand the Administration in implementing the
        prospective payment system and the professional review organization program
        was to encourage a shift of medical servicesfrom more costly inpatient settings to
        the outpatient arena. ‘Es would save costs on inpatient care, but it would also
        trigger increased utilization of outpatient services.

        Technology has helped to shift services and costs to less expensive outpatient
        settings.

        Additionally, studies by ProPAC confirm that technology has played a minimal
        role in hospital inpatient cost increases.

              Overall, the results suggestthat new technology and technological ad­
              vances account for only a small part of the annual increase in total Medi­
              care expenditures for hospital operating costs. (Medicare Prospective
              Payment and the American Health Care System, Report to the Congress,
              Prospective Payment Assessment Commission, June 1988, page 22.)

        A complete examination of the role of technology in terms of Medicare Parts A and B
        payments reveals that technology contributes only modestly to overall increases.

2. 	    The section dealing with other studies and actions should include a description of the
        September 14, 1985 report and recommendations of the Congressionally mandated Na­
        tional Advisory Council on Health Care Technology Assessment.



                                              D- 15 

 3. 	     improved communications     between manufacturers and carriers can make technology as­
          sessment more eficient.

         The Draft Report statesthat: “Manufacturers also createproblems for the carriers
         by providing data that are not relevant, objective, or complete.” (Page 6.)
         Manufacturers can provide better prepared materials for carriers if they know
         precisely what information carriers need in order to make reasonablecoverage
         decisions. The information requirements are rarely spelled out by carriers. Even
         coveragerequirements used at Medicare’s national level have only been issued in
         proposed form asrecently as January 30.1989. (Seeproposed rule in Federal
         Register.) Carriers in some casesare quite reluctant to take the time to discuss
         their evaluations with manufacturers. HIMA has someevidence of carriers
         refusing to respond to manufacturers’ inquiries. Improving the communication
         between carriers and manufacturers would facilitate proper assessments.

         HIMA has for three years been conducting seminarsto educateits membersabout
         Medicare concerns. We have featured-representativesfrom carriers and would
         like to continue and even expand theseprograms. (These conferenceshave also
         included representatives from the Inspector General Division of the DHHS Offke
         of General Counsel.)

4. 	     HIMA and its members have consistently identified the problems with cost-effectiveness
         as a coverage criteria.

          The Draft Report (pages 8-9) implies an endorsementby manufacturers of
          cost-effectiveness as a coverage criterion. HIMA has underscoredthe legal,
        a methodological, and policy problems associatedwith using cost-effectiveness as a
          Medicare criterion. Some clarificationof this section should be made.

B.       HIMA COMMENTS ON IG RECOMMENDATIONS

1. 	     A clearinghouse to compile and disseminate information on health care technologies
          could be an asset to carrier decision-making provided the information was regularly
          kept up to date and that the sources of data into the clearinghouse included information
         from a wide range of reliable sources, including manufacNers of medical technology.

         HJMA would like to sound a note of caution that such a clearinghouse should not
         unduly complicate the coverage decision-making process. Creating a new entity
         might only add delay in decisions without improving the quality of decisions.
         Thus, it would be crucial, if such a clearinghouse was to be considered, that clear
         operating parameters be established that assurerapid and accurateacquisition and
         dissemination of data.

2. 	     Greater consistency, to the extent it is needed, can be promoted by finalizing   the Medi­
         care coverage regulation.



                                                 D- 16 

       The IG report recommends that HCFA should foster greater consistency among
       carrieIs in coverage and pricing decisions. HCFA has made a substantial step in
       this direction already with the publication of a proposed rule on January 30,1989,
       dealing with Medicare coveragecriteria. The criteria would apply for both
       national and local decision-making. Setting out the rules for coverage is the best
       first step in making decisions more consistent.

       The Medicare program was designed to operate in a decentralized fashion. The
       system of carriers and fiscal intermediaries was set up to taiceadvantageof the
       expertise held by operating insurance companies. The Draft Report proposes,in
       some respects,to reversethis principle. The carriers would benefit from a
       binding national mechanism that imposes decisions on them becauseit would
       relieve them from the burden of making the decisions themselves. They could in
       fact shift this responsibility to the federal government.

      Some improvements in carrier consistency should be expected, but not the-
      federalization of technology assessment. The question of variation in practice
      patterns is a complex one. There are legitimate divergences in medical care when
      comparing research-intensive, teaching institutions to small rural hospitals.
      carriers should continue to have the responsibility, discretion, and flexibility to
      apply coverage rules to their own unique situations. This can assurethat
      decisions anzmade with the patient’s needs in mind, not just the need for national
      uniformity.

       The finalization of HCFA’s coveragerule, transmission of the rule to caniers,
     _ education of the carriers, and requiring compliance with the rule through HCFA’s
       annual carrier performance evaluation program (CPEP) would improve
       performance without creating a new layer of bureaucracy.

3.    Sufficient legislative author@ clearly exists for Part B payment controk.

      The IG report suggestslegislative changes to allow HCFA to establish reasonable
      charges for a new technology, at the time of initial coyerage and after the
      technology has been disseminated into the marketplace. HCFA currently has
      wide-ranging authority to establish payment amounts and to change those
      amounts. The legislation allowing the use of inherent reasonablenessfor
      physician services and for other Part B items, the implementing regulations, and
      the carrier instructions are quite detailed. They afford caniers a high degreeof
      guidance in payment analysis. This is not to say that Part B payment mechanisms
      are not complex and could benefit from clarification. However, no further
      legislative changesshould be contemplated until recent initiatives have been fully
      understood by the carriers and providers.

      The Draft Report assumesthat costs will inevitably drop as familiarity with a new
      technology increases. This assumption needsto be fully explored to seeif in fact



                                            D- 17 

       “economics of scale or knowledge” occur in the medical marketplace. The
       concept appearsto be driven by anecdotesand two procedures,cataract extraction
       and coronary artery bypass grafts, which may not representthe actual dynamics
       of technology-specific, system-wide efficiencies.

C.     CONCLUSION

       The role of carrier coverage decision-making has been and will continue to be an
       important part of the Medicare program. The Draft Report identifies some areas
       where improvement is needed. HIMA supports, as noted above, certain reforms
       that will contribute to better and more efficient decisions. We are concerned that
       certain recommendations made in the Draft Report would not improve the
       process.

       We very much appreciate the opportunity to review the Draft Report and share
       our comments with you.                                                   -.

OIG RESPONSE       TO HIMA    COMMENTS

We agreethat certain reforms will contribute to better and more efficient decisions and we
welcome the support of HIMA in those areaswhere improvement is needed. We continue to
believe that the recommendations made in the draft report would improve the process.

In responseto specific concerns expressedby HIMA:

Al.    The report statesthat technology innovation accountsfor a substantial portion of the an­
      -nual increasein Part B payments, and cites studies by HCFA and OTA in support. We
       are not aware of more recent studies that estimate this portion more precisely. We did -
       not state,or imply, that technological innovation is the major cause of the annual in­
       crez~~ Indeed, we did state that inflation is the largest factor.

A2. 	 We have added a reference to the report of the National Advisory Council on Health
      Care Technology Assessmentto the section dealing with other studies and actions.

A3. 	 We recognize the initiative of HIMA in conducting seminars to educate its members
      about Medicare concerns. But we also recognize that manufacturers ordinarily take the
      initiative in approaching carriers about new technologies. Although we agree with
      HIMA that improved communications can make technology assessmentmore efficient,
      we remain concerned that HCFA and the carriers need to take a more affmative atti­
      tude in relating to manufacturers.

A4. 	 The four manufacturer’s representativeswhom we interviewed gave their own opinions
      about cost effectiveness as a major criterion in making Medicare coverage decisions. It
      should not be inferred that they are representative of the group of all manufacturers. We




                                             D- 18 

         have mod&d the text to emphasize that theseare individual opinions, and we have
         noted HIMA stated concerns with cost effectiveness as a criterion.

Bl.     We agree with HIMA’s concern that any clearinghouse provide information promptly in
        order to expedite coverage and pricing decision making, and we have noted the impor­
        tance of time in the final report.

B2.     We agree with HJMA that implementation of HCPA’s proposed rule on coverage deci­
        sion making is an important first step, but this alone is not enough. The carriers are ask­
        ing for more effective guidance from HCFA, better communications among themselves,
        and quicker more extensive sharing of nationai Medicare data with the carriers by
        HCPA. The MITAG discussionsprovide an attractive model for improving communica­
        tions.

B3.     We continue to believe that the statutory authorities HCPA now has for deciding the
        amounts Medicare pays for a new technology are so detailed and complex as to be effec­
        tively unusable. The small number of-carriers reporting use of inherent reasonableness
        illustrates this situation. We believe there is a need for a clearly stated statutory author­
        ity for HCFA to set national prices or price limits in those exceptional situations where
        HCFA believes this action warranted.

        This authority should allow HCFA to go beyond charge histories (for example, to
        consider product development costs) in order to set a reimbursement amount that
        is fair to the provider of service,encouragesbeneficiary accessto the benefits of
        new technology, and supports innovation by the manufacturer or other innovator.
       _We should emphasize that we foresee this processoccurring about as frequently
        as do national coverage decisions now, approximately 20 time a year. Carriers
        would continue to make almost all Part B coverage and pricing decisions.

HEALTH INSURANCE ASSOCIATION OF AMERICA (HIAA) COMMENTS

Thank you for sharing with us the draft report entitled, “Medicare Carrier Assessment of New
Technologies,” which provides an overview of major issuesand challenges facing the
Medicare Part B carriers in assessingnew health care technologies. We have had an
opportunity to review this draft report and we have the following comments:

1) 	    We would support the establishment of a clearinghouse on emerging and new technolo­
        gies in order to accessinformation bearing on the identification, coverage and pricing of
        such technologies.

       The HIAA has been discussing the desirability and feasibility of establishing such
       a clearinghouse for its members, and we would be very willing to meet with
       representatives from HCFA and PHS in order to discuss a collaborative effort.




                                               D- 19 

2) 	   We support the recommendation regarding HCFA’s need to foster greater consistency
       among carriers in their coverage and pricing decisions concerning new technologies and
       to go a step further, we would recommend that such information should be shared with
       private sector third party payers.

3) 	   We support the recommendation that HCFA should seek legislative authority to broaden
       the basis upon which it can establish the reasonablecharge for a new technology, both
       at the time of initial coverage and after the technology has been assimilated into the mar­
       ket place. There are severalcoverage/payment level issuesthat commercial insurers
       must deal with on a daily basis, and if such information could be sharedwith private sec­
       tor payers, it would also create greater consistency.

On page 15 of the report, it statesthat, “HIAA has established a Pm&e AssessmentCenter
which began in 1987, with preliminary studies in small areaanalysis and reviews of obsolete
technologies.” The formal name of the HIA4 technology assessmentactivity is called the
Medical Practice AssessmentUnit, which has initially developed a report on underevaluated
health care technologies, which includes information on obsolete technologies and
commissioned a study on quality assessment.Further, the unit plans to convene rotating
panels of experts by clinical area,in order to identify emerging and new health care
technologies, as well as technologies that may be becoming obsolete.

In addition to this activity, the association plans to hold a seriesof conferences dealing with
coveragepayment level issues,such as identifying setsof criteria by delivery setting, e.g.,
hospital inpatient care, ambulatory cam, preventive services,etc. As mentioned, we are
considering the establishment of a clearinghouse in order to assistour companies in
identifying emerging and new technologies.

The unit does not plan to conduct any small area analysis studies at this time, and your final
report should reflect that.

I believe the recommendations offered in the report would dramatically improve the
operational aspectsof Medicare carrier identification and assessmentof new technologies, and
we would be pleased to work with the Inspector General’s office to improve the Medicare
coverage decision-making process.

OIG RESPONSE       TO HIAA COMMENTS

We welcome HIAA support for our three recommendations, and we encourage HCFA and
PHS to arrange a meeting of all interested parties to discusscollaborative efforts with regard
to a clearinghouse.

We misunderstood some of the information about the Medical Practice AssessmentUnit that
was provided by HIAA during our interviews. We have changed the final report to recognize
the activity of the unit as stated by HIAA.




                                              D - 20 

                                          APPENDIX E 


                                           ENDNOTES 


 1. 	   Health Insurance for the Aged and Disabled, Title XVIII of the Social Security Act, 42
        USC. 1395 et seq.

2.      Section 1862(a)(l)(A) of the Social Security Act, 42 USC. 1395y(a)( l)(A).

3.      Section 1842(a) of the Social Security Act, 42 U.S.C. 1395(u)(a).

4. 	    U.S. Department of Health and Human Services,Health Care Financing Administration,
        Medicare Program; Procedures for Medical Services Coverage Decisions; Request for
        Comments, Notice, 52 Federal Register 15560, April 29.1987.

5. 	    U.S. Department of Health and Human Services,Health Care Financing Administration,
        Health Care Financing Notes, September 1986.

6. 	    U.S. Congress, Office of Technology Assessment(OTA), Medical Technology and
        Costs of the Medicare Program, Report OTA-H-227, July 1984, pp. 43ff.

7. 	    Notes 4 and 5. From 1980 to 1985, the Consumer Price Index for all urban consumers
        for all items rose from 246.8 to 322.2 (31 percent), and that for medical care rose from
        265.9 to 403.1 (52 percent). Data from U.S. Department of Labor, Bureau of Labor
        statistics.

8. 	    Note 6. The OTA explored the dual relationship between Medicare and health care
        technology. Medicare policies affect the adoption of technologies, and patterns and use’
        of technologies affect Medicare costs. The OTA listed 18 major options, among them
        an option to mandate that Medicare coveragedecisions include cost considerations
        when appropriate and an option to move to fee schedulesfor physician payments under
        Medicare.

9. 	    Lewin and Associates, A Forward Plan for Medicare Coverage and Technology
        Assessment, Washington, DC., 1985. Among the changesrecommended by Lewin are
        clarifying and opening up to the public the coveragedecision making process and more
        narrow coverage decisions by HCFA.

10. 	 U.S. Department of Health and Human Services, Growth in the Volume and Intensity of
      Physician Services, Washington, DC., 1989. This report is in response to Section
      4056(c)(2) of Public Law 100-203, The Omnibus Budget Reconciliation Act of 1987.

11.     Jamesonv. Bowen, CA. No. CV-F-83-547~REC (E-D. Cal).




                                               E-l
..


       12.    Federal Register, January 31,1989, Volume 54, Page4302.

       13.    Griffiths et al. v. Bowen, U.S. District Court, D. Mass., C.A. 86-2556-Y.

       14. 	 U.S. Department of Health and Human Services,Office of the Assistant Secretary for
             Health, National Advisory Council on Health Care Technology Assessment, The
             Medicare Coverage Process, Washington, D.C., 1988.

      15. 	 Blue Cross and Blue Shield of Massachusetts,Guidelines for Proper Submission of New
            ServicelProduct Information to Third Party Payers, Boston, MA, no date.

      16. 	 Blue Cross and Blue Shield Association, Coverage of New or Unusual Devices,
            Services and Procedures in the Absence of Written Medicare Guidelines, Administrative
            Bulletin 1816, Chicago, IL, November 7,1985.

      17. 	 Similar comments about the role of cost effectivenesswere made in the comments
            received by the HCFA, note 4, and in the study by Lewin and Associates, note 9.

      18. 	 Joint letter to the Secretary of the U.S. Department of Health and Human Services,
            dated Match 30,1989.

      19. 	 See the OTA report on Medical Technology and Costs of the Medicare Program, note 6,
            appendix E, table E-4.

     20. 	 U.S. Department of Health and Human Strvices, Health Care Financing Administration,
           Coverage Issues Manual, HCFA Publication 6, Section 50-13, November 1985.

     21. 	 The idea of a clearinghouse to shareinformation among carriers, particularly on      .
           coverageissues, has been put forward before. Seethe discussion in appendix E of note
           6 for further comments by carriers.

     22.     Section 1842(b) of the Social Security Act, 42 U.S.C. 1395(b).

     23. 	 U.S. Department of Health and Human Services,Heahh Cam Financing Administration,
           Medicare Carriers Manual, HCFA Publication 14, Part 3, Section 5000 ff, especially
           Section 5246, March 1987.

     24. 	 United StatesDepartment of Labor, Bureau of Economic Analysis, Survey of Current
           Business, 68 (4) 75, April 1988.

     25. 	 American Chamber of Commerce ResearchersAssociation, Inter-City Cost of Living
           Index, Fourth Quarter, 1987, Indianapolis, Indiana, 1988.

     26.     Kirchner, Merian, Medical Economics, October 3, 1988,page 126ff.      .




                                                   E-2 

